<html>
<title> - REVIEW OF THE NRC'S NEAR-TERM TASK FORCE RECOMMENDATIONS FOR ENHANCING REACTOR SAFETY IN THE 21ST CENTURY</title>
<body><pre>[Senate Hearing 112-981]
[From the U.S. Government Publishing Office]






                                                        S. Hrg. 112-981
 
REVIEW OF THE NRC'S NEAR-TERM TASK FORCE RECOMMENDATIONS FOR ENHANCING 
                   REACTOR SAFETY IN THE 21ST CENTURY

=======================================================================

                             JOINT HEARING

                               before the

                       SUBCOMMITTEE ON CLEAN AIR 
                           AND NUCLEAR SAFETY

                                and the

                              COMMITTEE ON
                      ENVIRONMENT AND PUBLIC WORKS
                          UNITED STATES SENATE

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                           DECEMBER 15, 2011

                               __________

  Printed for the use of the Committee on Environment and Public Works
  
  
  
  
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
  
  
  


         Available via the World Wide Web: http://www.fdsys.gov
         
         
         

                               _________ 

                U.S. GOVERNMENT PUBLISHING OFFICE
                   
 26-661 PDF                 WASHINGTON : 2017       
____________________________________________________________________
 For sale by the Superintendent of Documents, U.S. Government Publishing Office,
Internet:bookstore.gpo.gov. Phone:toll free (866)512-1800;DC area (202)512-1800
  Fax:(202) 512-2104 Mail:Stop IDCC,Washington,DC 20402-001              
         
         
         
         
               COMMITTEE ON ENVIRONMENT AND PUBLIC WORKS

                      ONE HUNDRED TWELFTH CONGRESS
                             FIRST SESSION

                  BARBARA BOXER, California, Chairman
MAX BAUCUS, Montana                  JAMES M. INHOFE, Oklahoma
THOMAS R. CARPER, Delaware           DAVID VITTER, Louisiana
FRANK R. LAUTENBERG, New Jersey      JOHN BARRASSO, Wyoming
BENJAMIN L. CARDIN, Maryland         JEFF SESSIONS, Alabama
BERNARD SANDERS, Vermont             MIKE CRAPO, Idaho
SHELDON WHITEHOUSE, Rhode Island     LAMAR ALEXANDER, Tennessee
TOM UDALL, New Mexico                MIKE JOHANNS, Nebraska
JEFF MERKLEY, Oregon                 JOHN BOOZMAN, Arkansas
KIRSTEN GILLIBRAND, New York

                Bettina Poirier, Majority Staff Director
                 Ruth Van Mark, Minority Staff Director
                              ----------                              

              Subcommittee on Clean Air and Nuclear Safety

                  THOMAS R. CARPER, Delaware, Chairman
MAX BAUCUS, Montana                  JOHN BARRASSO, Wyoming
FRANK R. LAUTENBERG, New Jersey      DAVID VITTER, Louisiana
BENJAMIN L. CARDIN, Maryland         JEFF SESSIONS, Alabama
BERNARD SANDERS, Vermont             LAMAR ALEXANDER, Tennessee
JEFF MERKLEY, Oregon                 MIKE JOHANNS, Nebraska
BARBARA BOXER, California (ex        JAMES M. INHOFE, Oklahoma (ex 
    officio)                             officio)
    
                            C O N T E N T S

                              ----------                              
                                                                   Page

                           DECEMBER 15, 2011
                           OPENING STATEMENTS

Boxer, Hon. Barbara, U.S. Senator from the State of California...     1
Inhofe, Hon. James M., U.S. Senator from the State of Oklahoma...     3
Sanders, Hon. Bernard, U.S. Senator from the State of Vermont....     5
Alexander, Hon. Lamar, U.S. Senator from the State of Tennessee..     7
Lautenberg, Hon. Frank R., U.S. Senator from the State of New 
  Jersey.........................................................     9
Sessions, Hon. Jeff, U.S. Senator from the State of Alabama......    10
Crapo, Hon. Mike, U.S. Senator from the State of Idaho...........    62
Barrasso, Hon. John, U.S. Senator from the State of Wyoming......    63
Vitter, Hon. David, U.S. Senator from the State of Louisiana.....    64
Boozman, Hon. John, U.S. Senator from the State of Arkansas......    65
Carper, Hon. Thomas R., U.S. Senator from the State of Delaware..    66

                               WITNESSES

Jaczko, Hon. Gregory B., Chairman, U.S. Nuclear Regulatory 
  Commission.....................................................    68
    Prepared statement...........................................    70
    Responses to additional questions from:
        Senator Boxer............................................    83
        Senator Carper...........................................   101
        Senator Inhofe...........................................   105
Magwood, Hon. William D., IV, Commissioner, U.S. Nuclear 
  Regulatory Commission..........................................   140
    Responses to additional questions from:......................
        Senator Boxer............................................   142
        Senator Carper...........................................   147
        Senator Inhofe...........................................   148
Svinicki, Hon. Kristine L., Commissioner, U.S. Nuclear Regulatory 
  Commission.....................................................   163
    Responses to additional questions from Senator Boxer.........   164
    Response to an additional question from Senator Carper.......   166
    Responses to additional questions from Senator Inhofe........   168
Apostolakis, Hon. George, Commissioner, U.S. Nuclear Regulatory 
  Commission.....................................................   177
    Responses to additional questions from Senator Boxer.........   178
    Response to an additional question from Senator Carper.......   180
    Responses to additional questions from Senator Inhofe........   182
Ostendorff, Hon. William C., Commissioner, U.S. Nuclear 
  Regulatory Commission..........................................   192
    Responses to additional questions from Senator Boxer.........   193
    Response to an additional question from Senator Carper.......   197
    Responses to additional questions from Senator Inhofe........   199

                          ADDITIONAL MATERIAL

Statement from the Inspector General, U.S. Nuclear Regulatory 
  Commission, to the Subcommittee on Environment and the Economy, 
  Committee on Energy and Commerce, U.S. House of 
  Representatives, The NRC Inspector General Report on the ``NRC 
  Chairman's Unilateral Decision To Terminate NRC'S Review of DOE 
  Yucca Mountain Repository License Application,'' June 14, 2011.   263
The Best Places to Work in the Federal Government, 2010 Rankings.   275
The Best Places to Work in the Federal Government, 2011 Rankings.   287


REVIEW OF THE NRC'S NEAR-TERM TASK FORCE RECOMMENDATIONS FOR ENHANCING 
                   REACTOR SAFETY IN THE 21ST CENTURY

                              ----------                              


                      THURSDAY, DECEMBER 15, 2011

                               U.S. Senate,
         Committee on Environment and Public Works,
              Subcommittee on Clean Air and Nuclear Safety,
                                                    Washington, DC.
    The Committees met, pursuant to notice, at 10 a.m. in room 
406, Dirksen Senate Office Building, Hon. Barbara Boxer 
(Chairman of the full Committee) presiding.
    Present: Senators Boxer, Inhofe, Carper, Lautenberg, 
Sanders, Udall, Vitter, Barrasso, Sessions, Crapo, Alexander, 
and Boozman.

           OPENING STATEMENT OF HON. BARBARA BOXER, 
           U.S. SENATOR FROM THE STATE OF CALIFORNIA

    Senator Boxer. The Committee will come to order. Let me 
start off by saying Happy Holidays to everybody, Merry 
Christmas, Happy Hanukkah, whatever is your preference. We 
welcome you all here.
    Senator Inhofe. Does that mean we will be home for 
Christmas?
    Senator Boxer. If I had anything to say about it, 
absolutely. Absolutely.
    It is the responsibility of the Environment and Public 
Works Committee to conduct oversight of the Nuclear Regulatory 
Commission, the NRC, and to ensure that the nuclear industry 
maintains the highest level of safety for the American people. 
Let me start, as I often do, by reading NRC's mission 
statement. The mission of the NRC is to license and to regulate 
the nation's civilian use of byproduct, source, and special 
nuclear materials in order to protect public health and safety, 
promote the common defense and security, and protect the 
environment.
    Today is the fifth time the members of this Committee have 
gathered in this room to discuss nuclear safety following the 
Fukushima crisis in Japan in March. At each of those meetings, 
I have repeatedly asked the NRC to heed the wake-up call from 
Fukushima, to reevaluate the safety and security of nuclear 
plants in the United States, and to implement the 
recommendations of the Near-Term Task Force as soon as 
possible.
    In fact, at our last NRC hearing on August 2nd, four of you 
made the commitment to me and to this Committee that you would 
move forward on some or all of the Near-Term Task Force 
recommendations within 90 days. To my great disappointment, 
that has not happened. Although Chairman Jaczko repeatedly 
asked you to keep your commitment to move expeditiously on 
safety, you are more than a month overdue on that commitment. 
It doesn't appear to me that such action is set to occur any 
time soon, and I am hopeful maybe the Commission, all of you, 
especially the Chairman, could tell me if I am wrong on that. I 
would hope there is a date to act on those recommendations.
    Colleagues, less than a week after the Task Force delivered 
its report to the NRC, Chairman Jaczko laid out a road map to 
address the lessons learned from Fukushima. And he set a 
deadline of October 21st for action on those recommendations. 
He was proactive, because without a specific time table for 
these common sense safety measures, the NRC will not live up to 
its mandate, as we just saw, to require nuclear power plants to 
be safe and reliable.
    But instead of taking action, every Commissioner, except 
Chairman Jaczko, focused on delay in the form of a re-review. 
Guess what the result was? That re-review came to the same 
conclusions as the first review. So here we are on December 
15th, and not one of those safety recommendations has been 
accepted and acted on. It is simply inexcusable. Slow walking 
needed reforms after a disaster like Fukushima, where 
widespread contamination has set back Japan immeasurably, must 
not be an option.
    Yesterday, instead of focusing on nuclear plant safety, a 
House committee conducted what I consider to be a witch hunt in 
an attempt to assassinate the character of a dedicated public 
servant. Frankly, I was shocked, and I was appalled. One of you 
Commissioners even said in written testimony that the Chairman 
was abusive to women.
    I asked my staff to check out this accusation. And let me 
tell you what they found. They found the opposite. In fact, 
that the Chairman, according to one respected female staffer, 
was, quoting her directly, the most fair person she has ever 
met. She went on to say, ``He treats everyone equally.'' Other 
comments include: ``He invites people to dissent, and I have 
never seen him mistreat others.'' One woman said, ``What I am 
floored by is the conduct of the other Commissioners.''
    Our nation is fortunate to have Greg sitting in the 
Chairman's seat, because he is a proven leader. I believe that 
without his leadership on the Commission, the NRC might never 
have implemented the important safety recommendations made at 
the 9/11 terrorist attacks. It took 10 years. But it was the 
Chairman that made it happen finally.
    The NRC must focus on safety, and it must take action 
without delay if nuclear power is to maintain the public trust. 
I want to show you part of a New York Times editorial from July 
23rd. ``If nuclear power,'' they write, ``is to have a future 
in this country, Americans have to have confidence that 
regulators and the industry are learning the lessons of 
Fukushima and taking all steps necessary to ensure safety.'' 
The American people's faith in nuclear power was shaken by the 
Fukushima crisis. No matter what we may think, the polls show 
that their confidence was shaken. And the American public 
rightly expects the NRC to redouble its efforts to ensure that 
our nuclear plants are the safest in the world. But that has 
not happened.
    And let me tell you what happens when people lose 
confidence in the NRC and the nuclear industry. Right now, 
there is a petition circulating in my State for a ballot 
initiative which would effectively shut down the two nuclear 
plants we have in California. You know all about those plants, 
because I have questioned you about them. As a matter of fact, 
I met one of the Commissioners there, and we went--we 
investigated. There is a lot of concern. In one case, tens of 
millions of people live within 50 miles. I shouldn't say tens 
of millions, how many is it? I am sorry, 7.4 million live 
within 50 miles of one of those plants, and the other one is 
about half a million people.
    So here is what happens. If the NRC doesn't do its job, if 
the American people feel that they are not being protected, if 
the American people feel that all this is about is some battle 
as to who should be the Chairman and who is going to score 
political points, and you are distracted from what you have to 
do, you are going to see more of these moves across the 
country. And that would be very, very sad, because there are 
many old nuclear power plants that have similar characteristics 
as Fukushima.
    So I speak to you right from the heart like I did the last 
time when I say, can't you stop this battling and talk to each 
other like human beings? What happened yesterday was a horrible 
setback, but it is not too late to recover from that. We should 
be focusing on the work that you have to do, not petty politics 
and personal ambition.
    So I hope going forward you will focus on safety. We will 
focus on safety. And stay away from the politics of personal 
destruction.
    I am happy to call on Senator Inhofe.

          OPENING STATEMENT OF HON. JAMES M. INHOFE, 
            U.S. SENATOR FROM THE STATE OF OKLAHOMA

    Senator Inhofe. Well, Madam Chairman, I would almost use 
some of the same words you used when you say you were shocked 
and appalled at the apparent character assassination of one 
person. But I am appalled at the attempted assassination of the 
character of four people, four public servants.
    I remember in 1996, I chaired the Subcommittee. At that 
time we had gone several years without any oversight. We 
totally changed it. It has been doing very well since then. I 
was very proud of it.
    I have to say that I am just blown away by the numerous 
reports, and I say reports, of Chairman Jaczko's intimidation 
and retaliation against senior staff, agency staff, in attempts 
to fundamentally undermine the collegial function of the 
Commission, and to perhaps, allegedly, for his own objectives 
in his efforts to withhold information from his fellow 
Commissioners.
    Now, what surprises me is that the White House appears to 
condone this behavior, dismissing it as management differences. 
Well, the management differences that we have here are serious. 
We have one Chairman who believes that bullying staff is 
acceptable in an effort to further his own agenda and four 
Commissioners who disagree. In 2006 the late Commissioner Ed 
McGaffigan--and I think everyone remembers him, he is one who 
has been held in such high esteem, we lost him, unfortunately. 
But he made a statement, it was actually a speech to the NRC 
employees. I think it is appropriate to read that speech.
    He said, ``You come to an institution, the NRC, that is 
routinely subject to baseless attacks by groups opposed to 
nuclear power, that call themselves nuclear watchdogs. These 
groups need to demonize the NRC, you and me, to fund themselves 
and their anti-nuclear agenda. When I arrived at NRC in 1996, I 
had spent two decades working on national security issues first 
as a foreign service officer then as an aide to Senator Jeff 
Bingaman. I did not know that I was a demon, but it didn't take 
long for me to cast votes based on my scientific, technical, 
and policy judgment that we were not to the liking of the anti-
nuclear zealots. And so I became a demon.''
    He went on to say--this incidentally, Madam Chairman, is 
the same year that I became Chairman of this Subcommittee, but 
anyway, he went on to say, and I am still quoting from his 
speech to his employees, ``Honor often involves telling people, 
perhaps colleagues, perhaps supervisors, what they don't want 
to hear. And it may make you enemies, but stories I could tell 
you from my own career would persuade you that you can afford 
such enemies, but you cannot afford to compromise your honor 
and your personal compass.'' I think it is appropriate that we 
re-read his statement, probably the guy who has been held in 
the highest regard of any, certainly during the years I have 
been here.
    What we saw this weekend was an immediate, concerted, and 
very public attempt to demonize four public servants, whose 
only crime was to conduct themselves with honor, to seek 
assistance as a last resort from the White House to address 
problems they have not been able to resolve on their own and 
risking their professional reputations, they came forward, on 
behalf of the employees who now work in a hostile environment, 
employees who are forced to choose between what they believe is 
right and what Chairman Jaczko wants them to do. Chairman 
Jaczko's actions simply can't be ignored.
    However, the White House appears willing to ignore the 
warning of four Commissioners, resting on their statements that 
his actions haven't impaired the Commission's ability to 
execute its mission to protect public health and safety. Yet is 
the President waiting to act until this happens? After all that 
we have learned how can President Obama still believe that Mr. 
Jaczko remains the single best possible person to serve in this 
post? I don't know what will have to happen to change his mind.
    Thank you.
    [The prepared statement of Senator Inhofe follows:]

                  Statement of Hon. James M. Inhofe, 
                U.S. Senator from the State of Oklahoma

    Thank you, Chairman Boxer, for holding this hearing. 
Nuclear safety has historically been a bipartisan issue, and I 
believe the agency and the public are best served when that is 
the case. I believe events over the last week have once again 
shown that nuclear safety is bipartisan: in this case two 
Democrats and two Republicans.
    I am dismayed by the numerous reports of Chairman Jaczko's 
intimidation and retaliation against senior agency staff, 
attempts to fundamentally undermine the collegial function of 
the Commission to forward his own objectives, and his efforts 
to withhold information from his fellow Commissioners. However, 
I must say I am not surprised, given what I have learned 
through previous oversight hearings.
    What does surprise me is that the White House appears to 
condone such behavior, dismissing it as mere ``management 
differences.'' Well, the ``management differences'' we have 
here are serious: we have one Chairman who believes that 
bullying staff is acceptable in an effort to further his own 
agenda and four Commissioners who disagree.
    In 2006 the late Commissioner Ed McGaffigan, well known and 
admired by members of this Committee on both sides of the 
aisle, gave a speech to NRC employees about the importance of 
speaking the truth to those in power. Here is what he said:
    ``You come to an institution, NRC, that is routinely 
subject to baseless attacks by groups opposed to nuclear power 
that call themselves `nuclear watchdogs.' These groups need to 
demonize NRC--you and me--to fund themselves and their anti-
nuclear agenda. When I arrived at NRC in 1996, I had spent two 
decades working on national security issues first as a Foreign 
Service Officer, and then as an aide to Senator Jeff Bingaman 
(D-NM). I did not know that I was a demon, but it did not take 
long for me to cast votes, based on my scientific, technical, 
and policy judgment, that were not to the liking of the anti-
nuclear zealots, and so I became a demon.''
    He went on to say:
    `` `Honor' often involves telling people--perhaps 
colleagues, perhaps supervisors--what they do not want to hear 
. . . And it may make you enemies. But stories I could tell you 
from my own career would persuade you that you can afford such 
enemies, but you cannot afford to compromise your honor, your 
personal compass.''
    What we saw this weekend was an immediate, concerted, and 
very public attempt to demonize four public servants whose only 
crime is to conduct themselves with honor; to seek assistance, 
as a last resort, from the White House to address problems they 
had not been able to resolve on their own. Risking their 
professional reputations, they came forward on behalf of the 
employees who now work in a hostile environment, employees who 
are forced to choose between what they believe is right and 
what Chairman Jaczko wants them to do.
    Chairman Jaczko's actions simply can't be ignored. However, 
the White House appears willing to ignore the warning of four 
Commissioners, resting on their statements that his actions 
haven't impaired the Commission's ability to execute its 
mission to protect public health and safety--yet. Is the 
President waiting to act until it does? After all that we've 
learned, how can President Obama still believe that Mr. Jaczko 
remains the single best possible person to serve in this post? 
What will it take for him to change his mind?

    Senator Boxer. Thank you.
    Senator Carper is going to pass at this time, and we will 
ask Senator Sanders for his statement.

          OPENING STATEMENT OF HON. BERNARD SANDERS, 
             U.S. SENATOR FROM THE STATE OF VERMONT

    Senator Sanders. Thank you, Madam Chair.
    I think many of us are not happy about what we are reading 
in terms of what is going on with the NRC, because your job is 
an enormously important job, and that is to protect the safety 
of the American people in our nuclear power plants. That is an 
enormous responsibility, given what we have seen recently in 
Japan.
    Clearly, the NRC has to be vigilant and rigorous in 
enforcing a safety regime that gives the American people 
confidence. And I will tell you, in my State, we have the same 
model nuclear reactor that melted down in Japan. And in my 
State, the people are not comforted. And they want to know that 
the NRC is doing everything it can to protect the safety of the 
American people.
    Now, the media has been reporting that we have a major 
personality conflict on the Commission. I don't know if that is 
true or not. But I suspect that there is more going on here, 
other than personality conflicts. The media has also, at least 
some of the media, has characterized, Madam Chair, what is 
going on as a ``coup'' attempted by several Commissioners to 
remove a Chairman, Mr. Jaczko, who in fact has been pushing for 
safety reform.
    I think what we may have here is a situation where some 
Commissioners did not understand the function of the Chairman 
and where some Commissioners have a philosophical disagreement 
with the Chairman on safety and transparency. But Madam Chair, 
what I hope we will look at today is go beyond personality 
conflicts and maybe understand some of the votes that have 
taken place, and in fact, why we don't know some of the votes, 
because there is a lack of transparency at the NRC.
    On the point of administration of the Commission, it 
appears that the other Commissioners are upset about Chairman 
Jaczko's management. But as White House Chief of Staff Bill 
Daley has noted, and this is an important point, Congress has 
structured the NRC to have a strong Chairman. And this has 
produced conflicts between the Chair and Commissioners dating 
back to 1999, long before Mr. Jaczko was Chairman.
    Madam Chair, I will tell you, when I was mayor of the city 
of Burlington, we used to have conflicts. I was the mayor, we 
had commissioners. And there was a disagreement about who had 
responsibility for what. But I think the record is pretty 
clear, the rules in terms of the NRC are clear and have been 
changed over the years to create a strong Chairman for the NRC. 
I think there may be some confusion about that, because I think 
we all know, President Carter submitted a reorganization plan 
to Congress in 1980, following Three Mile Island, which clearly 
states, ``The plan clarifies the duties of the Chairman as 
principal executive officer. In addition to directing the day 
to day operations of the agency, the Chairman will take charge 
of the Commission's response to nuclear emergencies.''
    On the issue of transparency, Madam Chair, three 
Commissioners were confirmed by this Committee last year. When 
they were confirmed, they told this Committee that they 
supported the Chairman's proposal to open up the NRC voting 
process to more transparency. Today, each NRC commissioner 
votes, as I understand it, by writing his or her own opinion 
behind closed doors, obscuring the process from public view, 
and making it difficult to know how a result is reached. In 
addition, it takes weeks, sometimes a month, after a vote is 
initiated for the public to learn the results.
    As far as I am aware, no progress has been made toward a 
more open and transparent public meeting process. Perhaps this 
is part of a philosophical difference. If so, we need to get 
into this issue of transparency and find out why some 
Commissioners oppose more openness.
    I can remember on a personal level, for the State of 
Vermont, a number of months ago, Vermont is right now engaged 
in a legal dispute in the courts with Entergy, a large energy 
company. And I asked the Commissioners to tell me, I had 
understood that there was a vote, that it was a 3 to 2 vote, 
where the NRC had urged--in my view, absolutely 
inappropriately--the Department of Justice to intervene. And I 
asked, tell me, how did you vote? I did not get a clear answer. 
The people of Vermont want to know; did you vote for Entergy, 
did you not?
    I think in general we need more transparency. My 
understanding is that Chairman Jaczko is fighting for 
transparency. And some of you are not. That is not a 
personality difference, that is a philosophical difference, 
that is a political difference.
    On the primary issue, the NRC should be concerned with 
safety. We are approaching the 1-year anniversary of Fukushima 
in March. In the United States, we have 23 nuclear reactors 
with the same design as the plant that experienced at least a 
partial meltdown in Japan, including one in my own State, same 
model as Fukushima. Yet the NRC has not yet acted to implement 
all 12 recommendations made by the task force of senior NRC 
staff to reform safety at U.S. plants. The Chairman has made 
very clear that he is ready to move on all 12 recommendations, 
but not all Commissioners, as I understand it, agree.
    The Union of Concerned Scientists points out that 48 
reactors still do not comply with fire safety rules established 
in 1980 and amended in 2004, to ensure that fires do not 
threaten backup power systems that could prevent a meltdown in 
an emergency. Yet, Madam Chair, we have four Commissioners who, 
against the Chairman's vote, voted to approve a delay for 
compliance through 2014. That is not a personality difference. 
That is a point of view in terms of whether you are going to be 
aggressive, in my view, on safety or you are not. There was one 
person voting for that, it was Mr. Jaczko, four against it. Not 
a personality conflict, Madam Chair, a difference about what 
the function of the NRC is.
    Let me conclude by saying that these are just two of many 
instances I am aware of where Chairman Jaczko has been in the 
lone vote, or in the minority voting for stronger safety 
measures. So I hope that the debate today is not about 
personality. All of us want safety. Who is fighting for safety, 
who is not fighting for safety? This means that there is in 
fact a philosophical divide on the Commission, and that is OK. 
It does not mean that the Commission does not function. But we 
need to get to the bottom of what that divide is.
    Yet today, just as some of his fellow Commissioners 
apparently desire, instead of talking about safety, we are here 
talking about personality conflicts. I call on all members of 
the Commission to get back to doing their jobs, and their job 
is to protect the safety of our nuclear power plants and the 
well-being of the people of this country.
    Thank you, Madam Chair.
    Senator Boxer. Thank you very much.
    According to arrival, next would be Senator Alexander.

          OPENING STATEMENT OF HON. LAMAR ALEXANDER, 
            U.S. SENATOR FROM THE STATE OF TENNESSEE

    Senator Alexander. Thanks, Madam Chairman, and to the 
members of the Commission, welcome.
    I remember the hearing for three new members of the 
Commission, three appointees of President Obama and how pleased 
I was with the President's appointments. Two were Democrats, 
one is a Republican, three of them sitting here, one a 
distinguished professor at MIT, one a person with broad 
experience as having actually operated reactors for the Navy, 
one with broad experience within the Energy Department. And it 
is not always that Republican and Democratic Presidents appoint 
such well-qualified people to positions. So I was very pleased 
by the President's appointments.
    In the same way, I am extremely troubled by this 
extraordinary action of having four of the five members of the 
Commission actually write a letter to the Chief of Staff of the 
White House saying that the Chairman has undermined the ability 
of the Commission to function as prescribed by law and they are 
concerned about the health and safety and security of the 
American people. Some Senators have said we should be talking 
about safety, that is what this letter says. So they are 
concerned about safety.
    And in my experience in public life, which goes back 40 
years, I have never seen anything like this before. I have 
never seen four well-respected members of a commission take it 
upon themselves to go to the White House, to the President with 
these kinds of concerns about the Chairman. Now, I know the 
Chairman very well, he has gone to Tennessee, and he has looked 
at our reactors in the TVA region. And I greatly appreciate 
that, and those have been good visits, and I have welcomed 
visits in my office.
    But I am deeply disturbed by this, and I don't know all the 
answers. But I do know that we have a lot of work to do in the 
Nuclear Regulatory Commission. I was just making a short list, 
TVA is trying to restart the nuclear industry in Tennessee 
using reactors. Commissioner Jaczko, Commissioner Ostendorff 
have both been there to look at the reactors, make sure they 
are safe, to see what is going on. We appreciate that.
    In Georgia and South Carolina, new reactors are being 
built. There are two new designs pending before the Commission. 
I am hopeful that small modular reactors may be coming along in 
our country. We have 104 reactors operating every day, 
providing 20 percent of all of our electricity, 70 percent of 
our clean electricity. We are trying to learn the lessons of 
Fukushima, which are pretty simple, really, what happened in 
Fukushima was a huge cyclone, hurricane, tidal wave. And the 
electricity that brings water to cool the rods didn't work. 
That was the problem.
    And the NRC is working on ways to fix it. And already, as 
we have said many, many times, the gold standard for safety in 
the world for nuclear power is in the United States of America. 
There has never been, never been a death at a civilian nuclear 
reactor, and no one was even hurt at Three Mile Island.
    So I am very disturbed. And I am particularly disturbed 
because--and I would like to hear today what is going on. What 
is going on? I would like to get back to the issues.
    Of course the Chairman has more responsibility during an 
emergency. That is in the law. But here is also what the law 
says: ``Each member of the Commission, including the Chairman, 
shall have equal responsibility and authority in all of the 
decisions and actions of the Commission, and shall have full 
access to all information. The Chairman cannot withhold or 
delay providing information.''
    That is in the law. And it is important to know whether 
these distinguished members of the Commission feel that they 
can't do their jobs because they are not having equal access to 
information. Somebody is right here, and somebody is wrong. And 
we shouldn't just be sloughing it off as a personality 
disorder. We should ask the Commissioners if they can resolve 
it themselves, that would be best. But apparently four of them, 
three appointed by President Obama, all of whom have 
distinguished reputations, have gone to this extraordinary 
length with a letter to the White House.
    So I hope, Mr. Chairman, for whom I have great respect, and 
the other members of the Commission, for whom I have great 
respect, I hope you can tell us what is going on, and I hope 
you yourselves can solve the problem and that we can focus not 
just on lessons from Fukushima, we know what happened at 
Fukushima, and we know what to do about it. Let's focus on all 
the other issues we have so we can start producing more 
reliable, clean electricity.
    I look forward to hearing the testimony and an opportunity 
to ask questions.
    Senator Boxer. Thank you very much, Senator.
    Senator Carper, do you still wish to wait?
    Senator Carper. Yes.
    Senator Boxer. OK.
    Senator Lautenberg, you are next.

        OPENING STATEMENT OF HON. FRANK R. LAUTENBERG, 
           U.S. SENATOR FROM THE STATE OF NEW JERSEY

    Senator Lautenberg. Thank you very much.
    Madam Chairman, what we are seeing today is what happens 
when an agency that has traditionally been controlled by the 
industry it serves, it regulates, meets a Chairman that puts 
safety of the American people ahead of the interests of the 
industry. Chairman Jaczko is the first Chairman in history of 
the Nuclear Regulatory Commission that has not come from the 
industry. He is a scientist. He is running his agency based on 
science. And clearly, some powerful people don't like his 
style. That is what I think it comes down to, and I would like 
to hear something about that shortly.
    After the accident at Fukushima, I sat down with Chairman 
Jaczko for more than an hour. I was impressed with the sharp 
focus in making sure our plants--and felt good about what was 
being done to make sure that our plants are safe and secure. In 
the months since that time, it seems to me he has done 
everything he can to move quickly to further improve our 
nuclear regulatory system. But that has meant taking on some 
entrenched and powerful interests.
    In July the NRC Near-Term Task Force proposed 
recommendations to improve nuclear safety after Fukushima. But 
the nuclear industry wants to delay or block some of the 
recommendations. According to a report released last week, even 
Chairman Jaczko's fellow Commissioners tried to delay the 
creation of the Task Force, slowing down the release of those 
recommendations.
    But that wasn't the first time the other members of the 
Commission conspired against safety measures. At least on eight 
occasions, the Chairman pursued safety improvements that were 
blocked by other Commissioners. Faced with delay tactics and 
other obstructions, Chairman Jaczko has used all of the legal 
tools available to him to improve nuclear safety, and it is no 
secret that nuclear companies would rather have an NRC Chairman 
that lets industry write the rules. But that is not the way 
government is supposed to work.
    Make no mistake: after seeing the nuclear crisis that 
threatened Japan this year, the American people want to know 
that their Government is doing everything in its power as 
promptly as can be done to make sure that a nuclear nightmare 
doesn't happen here. The American people want officials in 
Washington to stand up for them, not for the special interests. 
And in my belief, that is what Chairman Jaczko is doing.
    He served his country well, and I urge him to keep pushing 
forward. We need strong regulators who put the interest of the 
public above the interests of an industry and wake up every day 
looking for ways to make our country safer. Mr. Jaczko has 
committed to improving his work relationships with other 
Commissioners. And I hope that the NRC Commissioners will put 
this dispute behind them and get on with our tasks. Above all, 
our priority must be nuclear safety.
    The NRC's Near-Term Task Force determined our country's 
nuclear plants are safe. But a number of recommendations exist 
to make our plants safer. Our mission now must be to implement 
these recommendations quickly and completely. It is important 
to the people of New Jersey, my State, where four nuclear 
reactors provide our State with half of its electricity. In 
fact, one of the New Jersey reactors, the one located at Oyster 
Creek, is the nation's oldest and shares the same design as the 
damaged reactors in Japan.
    In communities that are home to nuclear plants, people are 
counting on us to make sure that safety and security remain our 
highest priorities. And if there is a difference in style and 
demeanor, it seems to me that if that is the case, then perhaps 
we can air it in a private meeting, Madam Chairman. Let's let 
it all hang out.
    I know one thing. I served in Europe in World War II. One 
of the most intemperate people that we had was General Patton. 
And guess what, he got it done. Thank you very much.
    Senator Boxer. Thank you so much.
    And now we will turn to Senator Sessions.

           OPENING STATEMENT OF HON. JEFF SESSIONS, 
             U.S. SENATOR FROM THE STATE OF ALABAMA

    Senator Sessions. Thank you.
    I don't believe this is an issue, a disagreement over 
personality. I am confident that from what I have read in the 
record that the Chairman has violated the explicit rules of the 
Commission and has been abusive in his treatment of staff and 
other Commissioners. It is not safe to have a Chairman filter, 
screen, and alter reports. The Task Force that you have 
referred to is a task force he selected without the input of 
the other members and did not follow the procedures that the 
other members believed was appropriate.
    I strongly believe that the assumption of emergency powers 
after Fukushima was clearly in violation of law. I am looking 
at a letter and will offer for the record a letter written by 
Mr. Dale Klein, the former Chairman of this Commission, a 
Ph.D., he wrote that ``I can see no reason to invoke emergency 
powers, because nothing in the incident would have required a 
suspension of normal Commission procedures. More than that, I 
would say nothing in the incident would qualify legally, 
either.''
    But he goes on to say, ``As I stated, I never declared 
emergency powers,'' in the 4-years he was there, ``and had I 
done so, I would have so stated in writing, would have called 
my fellow Commissioners and most importantly, solicited their 
support for my actions. Furthermore, I would have indicated 
when the authority was expected to end and would never have 
excluded my fellow Commissioners from the ops center as has 
been reported during the Fukushima event.''
    This is just unthinkable, Mr. Jaczko. This is why your 
Commissioners are concerned about your leadership. During the 
August hearing I asked Mr. Jaczko a series of questions about 
the emergency powers. I have since received a written report 
from Mr. Jaczko about his activities during that time. I find 
his report deficient. He did not answer the two most 
fundamental questions. One, why did he decide to exercise 
emergency power? Why did he feel like he couldn't operate with 
the board in a normal way? The statute, section 3 of the 1980 
Act, clearly states those powers are only available for an 
emergency ``concerning a particular facility or materials 
licensed or regulated by the Commission.'' Fukushima was not 
licensed nor regulated by the NRC. And he had no right, I 
believe, to execute those powers.
    And two, he did not address how he declared the use of 
powers. At our August 2nd meeting, Mr. Jaczko said a 
declaration was not necessary. He said it would just distract 
him from the work that he was doing. If you are going to take 
over and abrogate the responsibilities of the members of the 
Commission, I think the American public, talking about 
transparency, needs to know immediately that the normal 
procedures aren't being followed. Beyond that, he provided only 
a brief report, just over 5 pages, and not the complete report 
of performance during the emergency declaration that is 
required.
    And the report was not timely. It was produced in September 
after we complained about it, and the emergency occurred in 
March. So his report does not set forth each action he took, or 
decision he made, pursuant to his assumed emergency powers, not 
even noticed to his fellow Commissioners. His report talks in 
vague generalities, and extraordinary use of emergency powers 
certainly would require a detailed explanation and report of 
the actions taken.
    It did not discuss the request for information that he and 
his staff received from the other Commissioners during this 
time--they requested information--or precisely how he sought to 
provide it. Commissioner Magwood clearly testified yesterday 
before the House that there have been situations where Mr. 
Jaczko failed to provide important information that 
Commissioners requested. The NRC's executive director of 
operations also testified, ``The Chairman influence the 
information and timing of information that is provided to the 
Commission.''
    Is that improving safety in America, that one man gets to 
decide what the duly lawfully constituted Commission receives 
as information? This is in violation of section 2(c) of the Act 
that says, ``The Chairman shall be responsible for ensuring 
that the Commission is fully and currently informed about the 
matters within its functions.''
    If we don't have that, if the Chairman is not willing to 
comply with that, he should not be Chairman. It is just that 
simple. It is logical, it is the right thing to do and it is 
required by explicit statutory acts.
    He has been an abusive person and created a workplace 
environment that has been very uneasy and troubling for a lot 
of people. I think that is an additional problem that we have 
here. So this behavior by the Chairman raises a high level of 
concern. I believe the testimony we hear today will show that 
to be the case.
    In any event, this is a sad commentary, and I am sorry we 
are having to have this hearing. I wish it were not so. It does 
seem to me, Madam Chairman, that from what I have seen, from 
the interviews conducted by the House staff, that virtually all 
the high level staff members of the Nuclear Regulatory 
Commission are very troubled by the leadership of the Chairman.
    I thank the Chair.
    Senator Boxer. Thank you very much.
    Senator, I just want to make a couple of points. One is 
that this particular hearing was called well before any of this 
sniping began. And if you look at the title, it is Review the 
NRC's Near-Term Task Force Recommendations for Enhancing 
Reactor Safety in the 21st Century. That is what this hearing 
is supposed to be about.
    But it is totally appropriate for people on both sides to 
comment on these other issues. I ask unanimous consent to place 
in the record two documents, one, the testimony of the General 
Counsel of the NRC, which refutes your claims, and second, the 
investigation by the Inspector General that refutes your 
charges as well, so that we will have what you said next to--
let me just make that unanimous consent request, and then I 
will take yours. Is there objection?
    Hearing none.
    [The testimony of the General Counsel is unavailable for 
public review. The referenced information from the Inspector 
General follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Senator Boxer. Senator, do you want to put something into 
the record?
    Senator Sessions. I would like to offer the letter of 
December 15th from the Chairman.
    Senator Boxer. Of course. We will put that in the record 
right next to the IG report and the General Counsel.
    [The referenced information follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
        
    Senator Sessions. I think, Chairman, I don't necessarily 
agree with the summary analysis of that report as the Chairman 
expressed it. But I certainly don't object to it being part of 
the record.
    Senator Boxer. Thank you. Thank you very much. And people 
can read both and make their decision.
    Senator, do you wish to go yet? No.
    We are going to go on with Senator Crapo.

             OPENING STATEMENT OF HON. MIKE CRAPO, 
              U.S. SENATOR FROM THE STATE OF IDAHO

    Senator Crapo. Thank you very much, Madam Chairman.
    I believe it goes without saying that all of us very 
disturbed by what is happening here. It seems to me that it is 
truly a remarkable circumstance when four members of a five-
member Commission from both parties come forward with a letter 
to the President to state that they feel that the operation of 
the Commission on which they are serving is jeopardized. And 
then to see those four members vilified in what appears to be a 
retaliatory response, it just raises tremendous concern on my 
part about what is happening here.
    After these members of the Commission have raised their 
concerns, they have been accused of being controlled by others 
in their actions, they have been accused of trying to undermine 
the security and the safety of our nuclear operations in the 
United States. And they have been accused of trying to block 
transparency in the agency.
    These accusations are not minor. And it appears to me that 
it is something that we ought to look into in this Committee, 
because it is very disturbing.
    If you read the letter that was sent, these Commissioners 
said just the opposite, they expressed the concern that the 
NRC's essential mission to protect the health, safety, and 
security of the American people are being adversely affected. 
It has been said that they have been trying to undermine a 
proper response to the Fukushima accident. They have made the 
point that they feel that the Chairman has attempted to 
intimidate the Advisory Committee on reactor safeguards, a 
legislatively chartered independent group of technical 
advisors, to prevent it from reviewing certain aspects of the 
NRC's analysis of the Fukushima incident. We have very 
different versions of what is going on here.
    But the bottom line to me is that we have four members of a 
five-member Commission, and again, clearly from both parties, 
folks who have been appointed by the current President, 
President Obama, three of the four, I believe. And the 
accusations, in addition to those that I have mentioned, also 
are that apparently they don't understand the law, and they 
don't really have the authority to be concerned about the 
issues that they are raising, which I also find to be a 
remarkable response to the questions.
    As I understand it, the law says each member of the 
Commission, including the Chairman, shall have equal 
responsibility and authority in all decisions and actions of 
the Commission, shall have full access to all information 
relating to the performance of his or her duties and 
responsibilities and shall have one vote. And in a 1980 review 
of the operation of the Commission, it was concluded that the 
Chairman may not withhold or delay providing information 
requested by the Commission, individual members shall also have 
full access to all information in order to assure diverse views 
are properly informed.
    And this report goes on to say that the Commission's 
functions, information relating to the Commission's functions 
will be given to the Commissioners immediately and without any 
alteration.
    Now, I understand that there is an authority of the 
Chairman of the Commission to declare an emergency. And maybe 
we are going to get into battles over whether the Chairman of 
the Commission can simply eliminate the relevance of the other 
four members of the Commission by declaring an emergency. But 
it seems to me that we are getting into some pretty dangerous 
territory here, if we start, as a Committee, involving 
ourselves in an effort to personally attack and undermine the 
character of any of the members of this Commission. I think we 
ought to look into these facts and find out what has been 
happening and see whether we need to take any action in that 
regard.
    I am very disturbed by not only the dynamics of the fact 
that four members of the Commission have had to come forward 
with a letter to the President, and I think that everybody in 
America can see how remarkable it is that four people, four of 
the members of the Commission would deem it necessary to do 
that. I don't think anyone would believe that they did this 
lightly. And then to see the retaliation that has occurred in 
response to it. It is truly disheartening.
    Thank you, Madam Chairman.
    Senator Boxer. Thank you very much.
    Senator Carper is going to withhold, and we will turn to 
Senator Barrasso.

           OPENING STATEMENT OF HON. JOHN BARRASSO, 
             U.S. SENATOR FROM THE STATE OF WYOMING

    Senator Barrasso. Thank you, Madam Chairman. And I 
appreciate the opportunity to talk.
    I have great concerns. Ever since the nuclear disaster at 
Fukushima, the American people and the world at large have been 
discussing the need for improving nuclear safety. The American 
people want us to ensure that there will not be a repeat of the 
nuclear disaster we saw in Japan, not have a repeat here in the 
United States, that communities across America are safe from 
harm, and that the people around the country understand that 
the Nuclear Regulatory Commission is tasked with protecting us. 
It is not a responsibility that should be taken lightly.
    The October 13th letter to the White House Chief of Staff 
William Daley from two Republican and two Democrat NRC 
Commissioners raises serious in my view about public safety. As 
noted in the press and the House Oversight hearing yesterday, 
the letters describe the Chairman's actions and his behavior as 
``causing serious damage'' to the NRC and are ``creating a 
chilled work environment'' at the agency. The letter states 
that the Chairman ``intimidated and bullied senior staff to the 
degree that he has created,'' he, he has created, ``a high 
level of fear and anxiety resulting in a chilled work 
environment.'' Most importantly, the letter states that the 
``Commission no longer functions as effectively as it should.''
    Now, this is not the first time that this Committee has 
heard such charges. Before this Committee, earlier this year, I 
raised the issue of the June NRC Inspector General report. That 
report stated, ``Several current and former Commission staff 
members said the Chairman's behavior caused an intimidating 
work environment.'' A former Chairman told the Office of 
Inspector General that the Chairman often yelled at people, and 
his tactics had a negative effect on people. He described the 
behavior as ruling by intimidation. That is on page 43 of the 
report.
    Are we to dismiss the Inspector General's report where he 
states that there are a number of interviewees and several 
current and former NRC staff who echo what the four 
Commissioners who are here today with us have told the White 
House? Is nearly the entire NRC out to just get the Chairman? 
Or is there some truth to the concerns being raised by the many 
individuals who are trying to get this agency back on track?
    We must get back to the mission at hand and do the proper 
oversight to see that this agency gets back on track. We have 
four Commissioners here who say that the agency isn't working 
as effectively as it should. That means this agency, tasked 
with protecting the American people, is not fulfilling its 
mission under this Chairman's leadership.
    White House Chief of Staff Bill Daley said of the Chairman, 
``The Chairman apologized for the distraction caused by the 
present tensions and has taken responsibility for improving 
communication among the Commissioners.'' Well, apologizing for 
causing a distraction for the Obama administration to me is not 
an apology. This is about public safety, and the Commissioner 
needs to apologize to the public for letting things get to this 
point.
    Bill Daley's call to have all the Commissioners meet with a 
``trusted third party to work everything out with the 
Chairman,'' well, it ignores the claims made about verbal 
harassment to women and by others and the hostile work 
environment that the Commissioners and the staff have alleged. 
In no other workplace in this country would such charges be 
simply ignored, or would the accuser be told to work everything 
out with those who were making the accusations. The White House 
needs to do much more.
    So as Ranking Member of the Subcommittee on Clean Air and 
Nuclear Safety, I ask the Chairman of the Subcommittee and the 
full Committee to hold additional hearings to investigate these 
claims and to find out how this agency has gotten off track and 
how we can get it back on the right track on behalf of the 
safety of the American people.
    Thank you, Madam Chairman.
    Senator Boxer. Thank you very much.
    We will next hear from Senator Vitter, followed by Senator 
Boozman.

            OPENING STATEMENT OF HON. DAVID VITTER, 
            U.S. SENATOR FROM THE STATE OF LOUISIANA

    Senator Vitter. Thank you, Madam Chair, and thanks to all 
of our witnesses.
    I want to underscore in the strongest possible terms all of 
these concerns that have been voiced by my colleagues. We are 
in a time following the Japanese disaster, we are in one of the 
two most sensitive and important times regarding civilian 
nuclear safety in our lifetime. And the good news is, we don't 
have a crisis situation in terms of our reactors, in terms of 
immediate safety concerns, in terms of the industry and the 
state of the industry and the state of our technology.
    But the bad news is, we do have a crisis of government and 
a crisis of leadership, as evidenced by this discussion and the 
leadership style of the Chairman. Again, I want to repeat 
because it is so important, that these concerns are coming from 
four other Commissioners, two Democrats, two Republicans, three 
appointed under President Obama. By definition, this is 
obviously not some purely partisan disagreement. And I think we 
need to take it extremely seriously, because nuclear safety is 
involved. And it has reached, unfortunately, I believe, a 
crisis of government and leadership in the person of the 
Chairman.
    I also strongly agree with my colleagues that first, this 
Committee should take a strong, active, aggressive role in 
fixing the problem. Because we owe it to our constituents. And 
second, we need to urge the President to get actively involved 
because in some sense only he and the White House can really 
truly fix this. I certainly agree with previous comments that 
the suggestion of bringing in some third party mediator type to 
deal with everyone is not getting truly and seriously involved. 
We need leadership here from the President and the White House 
to fix this really quickly. And I urge that as well.
    Thank you, Madam Chair.
    Senator Boxer. Thank you, Senator Vitter.
    Senator Boozman.

            OPENING STATEMENT OF HON. JOHN BOOZMAN, 
            U.S. SENATOR FROM THE STATE OF ARKANSAS

    Senator Boozman. Thank you, Madam Chair, and really 
quickly, in the interest of time, because I know we need to get 
to the panel.
    The purpose of the hearing today to discuss Fukushima and 
the aftermath, how we can prevent that from happening here, all 
of that is so important. But I think the real problem is, and I 
think that we would all agree that for whatever reason, the 
Commission is pretty dysfunctional. I haven't been around here 
as long as some, but for me, in the past 10 years, this is 
probably kind of a unique thing. It shouldn't be a partisan 
issue, and I don't think it is a partisan issue in the sense 
that we have Democrats and Republicans serving on the 
Commission. The career staffers are having problems, I am sure 
there are Democrats and Republicans. But we really do have real 
problem.
    So I would very much like, we are charged with oversight, I 
would very much like for us to figure out whatever steps we 
need to do to help solve the problem. And like I say, I think 
that that really is very, very important. So for whatever 
reason we have a major problem here, at a time when this is one 
of the Commissions that is so important. After the aftermath, 
we have seen what happens with lax supervision.
    And again, right now, we have a significant problem. I 
would hope that the Committee does its job in doing the 
oversight to get this figured out and to solve the problem.
    With that, I look forward to the testimony. Thank you.
    Senator Boxer. Thank you.
    Now, Senator Carper.

          OPENING STATEMENT OF HON. THOMAS R. CARPER, 
            U.S. SENATOR FROM THE STATE OF DELAWARE

    Senator Carper. Well, to our Commissioners, thank you all 
for joining us here today. I remember in listening to Senator 
Alexander's comments, remember the first--I remember the day we 
had the hearing for the three nominees of President Obama, and 
just really being proud of the Administration, proud of the 
President for the selections that he had made and the nominees 
that he had sent to us that day.
    I remember the first time the five of you came before this 
Committee to testify and feeling proud to chair the 
Subcommittee that has jurisdiction over clean air and nuclear 
safety, and knowing that it is in your hands, the leadership of 
the Nuclear Regulatory Commission. And a year or 2 later, to be 
here today, to have, on the heels of the hearing in the House 
of Representatives yesterday and the assertions, the letters to 
the White House and my conversations with each and every one of 
you, I share in the dismay of my colleagues.
    As was said, and I will say it again, 20 percent of the 
electricity in this country comes from nuclear power. Because 
of the 104 nuclear power plants we have, we have less air 
pollution, we have less reliance on fossil fuels, we have 
greater energy independence, and frankly, a lot of jobs, good 
jobs, good paying jobs that help provide us the electricity we 
need to run this country and our economy. We need for this 
Commission to bring its A game to work every day, not just some 
of the time, all of the time.
    This Commission, you have heard me say more times than you 
probably want to remember, if it isn't perfect, make it better. 
And there is a lot that you all do well. I don't think the NRC 
is dysfunctional. But you are not bringing your A game.
    Frankly, where we serve on this side of the dais, the last 
several years, we have not brought our A game either. Sometimes 
I look at the U.S. Senate and I see wonderful people, smart 
people, bright people, good hearted people, dedicated people. 
And instead of getting a synergy out of this group in the 
Senate, sometimes we get just the opposite. To have a group of 
five people as talented and as dedicated and capable as you are 
and to not be able to work together any better than you are is 
just dismaying.
    I had the opportunity to chair the same Subcommittee that 
Jim Inhofe used to and George Voinovich used to chair. And 
Madam Chair, with your blessing and that of Senator Inhofe, I 
would hope that our Subcommittee could take a more active role 
in helping to get to the bottom of why this leadership of the 
NRC is unable to function better, to function more effectively 
and to be more collegial.
    In my own experience, I find that leadership is the key to 
everything I have ever been a part of. Senator Inhofe and I 
spent a lot of years in the Navy, he in the submarine, me in an 
airplane looking for submarines. I know he knows a little bit 
about leadership, and I think I do, too.
    I know as a leader around here, when people are unhappy 
with me here, I literally go to their offices. I go to their 
offices. And if there is some way I have offended somebody and 
hurt somebody, I apologize. I don't ask them to come to me, I 
don't ignore them, I go to see them. There are things that 
leaders sometimes have to do in order to create that 
environment of cooperation. Then there are the skills that we 
learn in other ways in other times of our lives. I think our 
leader, our Commissioner, our Chair here, may need to learn 
some of those lessons.
    But this is a guy who has the potential for being a very 
fine, a very fine Chairman. And I want to make sure, as long as 
you are the Chairman, that that is the kind of Chairman you are 
going to be. We all want to do that.
    And let me just say, we have gone through an experience at 
Dover Air Force Base which in the last 4 years has been 
nominated to be the best Air Force Base in the world, 
throughout the last 4 years, we have gone through an experience 
with the mortuary there where people weren't doing their best 
job every day. Three people blew the whistle. Three people blew 
the whistle on what they thought was inappropriate behavior 
involving the remains and fragments of remains of our fallen 
heroes.
    What happened to them? They became demonized. They were, in 
one instance, two people were fired, and one person was put on 
administrative leave for months, because they told the truth. 
But we are not interested in--if these other four Commissioners 
are whistleblowers, I don't want to be part of demonizing them. 
But I want to find out, I hope that in the context of this 
conversation today and the hearings and discussions, maybe a 
roundtable that follows, we can end up not with recrimination, 
not with finger pointing, not with political gamesmanship, but 
we could end up with a Nuclear Regulatory Commission that 
actually will do the three things that they are supposed to do 
every day, to protect the health of the American people, to 
protect their safety, to protect our security and make sure 
that there are 104 nuclear power plants and the ones that 
follow that operate as close to perfect as they possibly can.
    Thank you.
    [The prepared statement of Senator Carper follows:]

                  Statement of Hon. Thomas R. Carper, 
                U.S. Senator from the State of Delaware

    Let me begin by welcoming back the Nuclear Regulatory 
Commission's (NRC's) Commissioners to our Committee. I 
appreciate you taking the time to be before us today.
    Currently, this country has 104 nuclear power reactors 
operating in 31 States. Collectively, these nuclear power 
plants generate approximately 20 percent of our nation's total 
electric consumption.
    The energy from these nuclear power plants has helped curb 
our reliance on dirty fossil fuels and has helped reduce our 
air pollution that damages health and causes global warming.
    Despite the benefits of nuclear power, we have also seen 
the damages nuclear power can cause if not properly regulated.
    The crisis at the Japanese Fukushima Daiichi facility is a 
strong reminder that with nuclear energy, we can never be 
complacent when it comes to safety. Safety must always be our 
top priority.
    As I often say, if it is not perfect, make it better.
    That is why I was pleased to see that quickly after the 
Fukushima crisis, the NRC decided to put together a task force 
to review its own practices to see if we could do better in the 
United States to protect safety.
    Today I look forward to hearing an update on the NRC Task 
Force recommendation, hearing what the Commissioners view as 
their top concerns, and hearing when we might see actions.
    I believe we all need to work together to make sure we 
incorporate the right lessons learned to keep our nuclear fleet 
safe into the future. I look forward to working with the NRC to 
ensure that happens.
    Speaking of working together, I would like to take a moment 
to talk about the interactions of the Commissioners.
    For over a decade, as a member of the Senate EPW Committee, 
I have worked closely with the men and women who have served on 
the NRC.
    As Chairman of the Subcommittee responsible for nuclear 
safety, I have been particularly interested in the effective 
operation of the NRC.
    I said many times that there have never been five better 
qualified people to serve as Commissioners than those who serve 
today.
    That is why I am so disappointed that the five 
Commissioners, each talented and capable in their own right, 
have been unable to work together as a cohesive body.
    During the past year I have sought to improve the tenor of 
relationships among the five current Commissioners of the NRC.
    While I am discouraged that those efforts have not been as 
successful as I would have hoped, I am confident that the NRC 
will continue its critical mission--ensuring the safety and 
reliability of our nation's nuclear reactors now and in the 
future.
    Recent disagreements among Commissioners, while 
significant, have not impacted nuclear safety, nor should they.
    Moving forward, I will continue to encourage cooperation 
and collegiality among the Commission members and most 
importantly, that Congress provides the tools and resources the 
Commission needs to carry out its mission of protecting public 
safety through responsible nuclear regulation.

    Senator Boxer. Thank you very much, Senator.
    Now we turn to the Commissioners. And the way we have it, 
we have 5 minutes by the Chairman and each of you, if you would 
like to, can have up to 3 minutes each.
    So, Chairman, welcome.

        STATEMENT OF HON. GREGORY B. JACZKO, CHAIRMAN, 
               U.S. NUCLEAR REGULATORY COMMISSION

    Mr. Jaczko. Well, thank you, Chairman Boxer, Ranking Member 
Inhofe, Chairman Carper, and Ranking Member Barrasso of the 
Subcommittee, and members of the Committee.
    We appreciate the opportunity to appear before you today to 
update you on the NRC's review of the Fukushima Daiichi nuclear 
accident and the 2011 accomplishments of the agency.
    Before I do provide these specific updates, I would like to 
take a moment to just make a few brief comments. As many of you 
have indicated, over the past several days, there has been a 
flurry of attention paid to the management of the NRC and the 
dynamics of the Commission. I regret that these internal 
matters have been elevated to a public forum, and I accept my 
share of responsibility for the situation. As I have indicated, 
I am committed to working with my colleagues to address these 
issues and better understand their concerns.
    I have great respect for the experience and expertise of my 
colleagues, and I committed to moving forward and working 
effectively with them to ensure the safety and security of 
nuclear power plants and nuclear materials in the United 
States.
    In the aftermath of the Fukushima accident, the Commission 
established the Near-Term Task Force to spearhead our 
systematic and methodical review of the NRC's nuclear reactor 
safety program. Its members included some of the agency's most 
experienced and expert staff, collectively having more than 135 
years of regulatory experience.
    In conducting their review, the Task Force's efforts were 
independent, but they had full access to the entire NRC staff, 
with more than 100 hours of briefings. They also spent 
thousands of hours reviewing agency products and information 
and consulted closely with the NRC site team in Japan.
    When we last appeared before you, the Task Force had 
submitted its report to the Commission for consideration. In 
its report, the Task Force outlined a comprehensive set of 12 
recommendations that touch on a broad range of important 
issues, including the loss of electrical power, earthquakes, 
flooding, spent fuel pools, venting, and emergency 
preparedness. The Task Force's recommendations have now 
undergone two additional reviews, one by the NRC staff more 
broadly and another by the Advisory Committee on Reactor 
Safeguards. And we have benefited from the insights and 
perspectives of industry leaders, nuclear safety and 
environmental groups, and members of the public.
    The staff review endorsed nearly all of the Task Force's 
recommendations and identified several additional issues for 
consideration. The Advisory Committee on Reactor Safeguards 
also endorsed all of the Task Force recommendations that it has 
had the chance to examine thus far, and also proposed some 
additional steps.
    The Commission has now directed the staff to begin 
implementing immediately, partially or fully, five of the 
safety recommendations from the Task Force and set goals of 
completing station blackout rulemaking within 24 to 30 months, 
and completing all actions in response to the lessons learned 
from Fukushima Daiichi within 5 years. And in addition, just 
this morning, the Commission has finalized its recommendations 
or comments on an additional set of prioritization 
recommendations made by the staff of the agency in regard to 
the remaining recommendations.
    In summary, with the benefit of our staff's expertise, the 
ARCS's advice and critical stakeholder input, the Commission is 
moving forward on these recommendations. I think we all agree 
that this past year has been an exceptionally challenging and 
productive year for the NRC. We are proud to have once again 
scored among the top tier of Federal agencies in the 2011 best 
places to work in the Federal Government rankings. And the 
agency scored No. 1 in all four major indices.
    The staff and the Commission have done an outstanding job 
in the past year. We had anticipated that 2011 would be busy, 
but unexpected issues, most notably Fukushima Daiichi, raised 
substantial new challenges. In spite of these challenges, the 
staff remained focused on our critical safety mission and 
ultimately kept the public health and safety at the forefront 
of all of its actions.
    With that, I will conclude my testimony and appreciate the 
opportunity to answer your questions. Thank you.
    [The prepared statement of Mr. Jaczko follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
    Senator Boxer. Thank you very much.
    Mr. Magwood, do you have any comments? You have 3 minutes.

 STATEMENT OF HON. WILLIAM D. MAGWOOD, IV, COMMISSIONER, U.S. 
                 NUCLEAR REGULATORY COMMISSION

    Mr. Magwood. Thank you, Chairman. Good morning, Chairmen 
Boxer and Carper, Ranking Members Inhofe and Barrasso. Thank 
you for the opportunity to speak with you again on this 
important topic.
    When we last appeared before this Committee on August 2nd, 
just a few weeks after the issuance of the Near-Term Task Force 
report, among others, Chairman Boxer emphasized the importance 
with which she viewed applying the lessons of Fukushima to this 
country's nuclear infrastructure, and doing so as quickly as 
possible. We took your encouragement to heart and used it to 
challenge ourselves.
    Within 2 weeks of the last hearing, this Commission 
completed its first vote on the Task Force recommendations. We 
agreed unanimously to direct staff to begin immediately its 
engagement with stakeholders and to identify within 3 weeks 
those actions which could be implemented without delay, an 
approach that I actually suggested and my colleagues supported.
    This led to what we now call the 21-day paper, which the 
Commission adopted by mid-October. As a result of this 
decision, several key areas of work are already well underway. 
The NRC staff has held numerous meetings with industry, public 
interest group and other members of the public to formulate 
rulemakings, orders, and other regulatory tools that we needed 
to implement several of the higher priority Task Force 
recommendations.
    We have also recently finalized our guidance, as the 
Chairman mentioned a few minutes ago, to the staff on all 
actions that the agency will pursue over the coming years to 
respond to the lessons of Fukushima.
    Our work has benefited tremendously from stakeholder 
interactions. Areas that the Task Force had not raised in its 
report are now prominent elements of our analysis. We will, for 
example, consider the need for filtered vents for Mark I and 
Mark II containments. We will also consider the loss of 
ultimate heat sink in our agenda as well as review the pre-
staging of potassium iodide beyond the 10-mile emergency 
planning zone.
    Fukushima provided some important insights regarding all of 
these issues, and we can use that knowledge to enhance our 
assurance of safety in the United States. We have also received 
valuable support from the Advisory Committee on Reactor 
Safeguards. ACRS's review of the Task Force report and the 21-
day paper has highlighted several areas of concern on which we 
must focus. For example, ACRS highlighted the need to place 
high priority on new rulemaking to strengthen station blackout 
requirements. The ACRS's continued strong involvement in this 
ongoing effort must be a hallmark of our response to Fukushima.
    The Commission has directed the staff to strive to complete 
and implement all lessons learned from Fukushima within 5 
years. However, I believe that we must also approach this 
overall effort in a manner that recognizes some aspects of our 
response, such as station blackout, have more safety import 
than others and should therefore be completed as quickly as 
possible.
    In the particular case of station blackout, Commissioner 
Ostendorff has provided a leading voice on the Commission to 
assure that this rulemaking is completed within 30 months.
    I believe we have met the challenge this Committee has laid 
before us and have made tremendous progress in a short period 
of time. That said, I also believe that we must assure that our 
focus on the lessons of Fukushima do not distract from the 
existing regulatory work that may have equal or greater safety 
benefit than some of the elements of our Fukushima response. It 
is vital that we prioritize our overall portfolio of work and 
assure that we place our resources on those tasks that provide 
the greatest safety benefit.
    Thank you for your attention, and I look forward to 
answering your questions.
    [The responses of Mr. Magwood to questions for the record 
follow:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Senator Boxer. Thank you.
    Ms. Svinicki.

            STATEMENT OF HON. KRISTINE L. SVINICKI, 
        COMMISSIONER, U.S. NUCLEAR REGULATORY COMMISSION

    Ms. Svinicki. Thank you, Chairman Boxer, Ranking Member 
Inhofe, and members of the Committee, for the opportunity to 
appear you today on the topic of the review of the NRC's 
Fukushima response activities.
    I join Chairman Jaczko in thanking the NRC staff for their 
tireless work and unflagging efforts. As he has described, the 
Near-Term Task Force recommendations touch on a broad range of 
important safety areas, including the loss of power due to 
earthquakes, flooding, or other natural disasters to issues 
related to spent fuel pools and further scrutiny of emergency 
preparedness activities.
    The Task Force's recommendations include proposed new 
requirements for nuclear power plants to reevaluate and upgrade 
their seismic and flooding protection, to strengthen their 
ability to deal with the prolonged loss of power, and to 
develop emergency plans that specifically contemplate the 
possibility of events involving multiple reactors. The Task 
Force's recommendations have now undergone review by the NRC 
staff and the Advisory Committee on Reactor Safeguards. The 
agency's broad set of stakeholders have also been engaged 
through multiple public meetings.
    Through these efforts, we have benefited from the insights 
and perspectives of industry leaders, nuclear safety and 
environmental groups, and the public. In several public 
meetings, the Commission itself has heard directly from a 
diverse array of these stakeholders and plans to continue to do 
so during the coming year. I believe that all of these efforts 
have strengthened the NRC's activities in response to the 
Fukushima events.
    Additionally, as the NRC acquires more information about 
the accident, we will assess the impact of such information on 
actions already underway and determine whether additional 
actions are needed. The Institute of Nuclear Power Operations 
has released a special report on the nuclear accident at the 
Fukushima plant which provides a detailed time line of events 
after the earthquake and tsunami in Japan. The Commissions' 
longer-term review activities will evaluate emergent 
information such as this report as it becomes available, 
identify any additional recommended actions and assess, any 
impacts on actions underway.
    In addition to commending the NRC staff for their hard 
work, I would also like to acknowledge the extraordinary 
efforts of the Advisory Committee on Reactor Safeguards in 
having responded quickly to the Commission's request and all of 
the agency stakeholders who have participated in our public 
meetings to date. I believe their sustained involvement will 
further strengthen our activities as we move ahead.
    Thank you, Madam Chair.
    [The responses of Ms. Svinicki to questions for the record 
follow:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Senator Boxer. Thank you.
    Yes, Hon. George Apostolakis.

             STATEMENT OF HON. GEORGE APOSTOLAKIS, 
        COMMISSIONER, U.S. NUCLEAR REGULATORY COMMISSION

    Mr. Apostolakis. Chairman Boxer, Ranking Member Inhofe, 
Chairman Carper, Ranking Member Barrasso, and members of the 
Committee, good morning.
    I had hoped to testify today on the progress that we at the 
NRC have made on the Near-Term Task Force recommendations. 
Recently, however, some of my fellow Commissioners and I have 
been accused of conspiring to weaken the NRC response by 
deliberately delaying the implementation of these 
recommendations. I regret that I have to address such an 
accusation.
    The fact is that we have acted methodically and 
expeditiously. I find it deeply offensive that ill motives are 
ascribed to us.
    Nuclear safety matters are technically complex. This is one 
of the reasons that there is an independent five-member 
commission. Decisions on nuclear safety matters should not be 
made without careful deliberation. Such deliberation includes 
the technical evaluations by NRC senior management, the views 
of the statutory Advisory Committee on Reactor Safeguards, 
public meetings, and inputs from external stakeholders. This 
open and transparent process could be followed in the case of 
Fukushima because of the Task Force conclusion that the 
continued operation of U.S. nuclear power plants and continued 
licensing activities did not pose an imminent risk to public 
health and safety.
    As a result of this process, the technical basis for 
implementing the Task Force recommendations has been 
strengthened and additional technical issues for consideration 
have been identified. In particular, review of the 
recommendations by senior NRC staff members identified 
additional issues such as filtration of containment vents and 
loss of the ultimate heat sink. The ACRS made recommendations 
related to seismic and flood evaluations.
    Finally, public stakeholders made contributions on issues 
such as the distribution of potassium iodide following an 
accident and offered perspectives on the process of issuing 
orders.
    I would now like to highlight Recommendation 1 as 
presenting an enormous challenge. The Task Force recommends 
that the Commission establish a regulatory framework for 
adequate protection that appropriately balances defense in 
depth and risk considerations. This translates to a significant 
restructuring of the NRC regulatory framework.
    The Commission wisely directed the staff to pursue 
Recommendation 1 separately. This decision has enabled the NRC 
staff to begin working on those recommendations that can 
provide the most immediate safety benefit without delay.
    I am pleased with the progress the Commission has made as 
well as the fact that the process for reaching decisions has 
been transparent and methodical. Thank you very much.
    [The responses of Mr. Apostolakis to questions for the 
record follow:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Senator Boxer. Thank you.
    And finally, last but not least, Hon. William Ostendorff.

           STATEMENT OF HON. WILLIAM C. OSTENDORFF, 
        COMMISSIONER, U.S. NUCLEAR REGULATORY COMMISSION

    Mr. Ostendorff. Thank you, Madam Chairman, Ranking Member 
Inhofe, members of the Committee, for the chance to be before 
you today.
    It has been nearly 4 months since our last appearance 
before this Committee. I am pleased to say to you today, the 
Commission has provided clear direction to the NRC staff on an 
appropriate path for dispositioning the Near-Term Task Force 
recommendations and for approving regulatory actions that can 
be implemented without delay.
    Since I last appeared before you in August, I continue to 
take steps to enhance my own understanding of these issues by 
looking at measures in place at U.S. nuclear power plants to 
deal with beyond design basis events and natural hazards. In 
October Commissioner Magwood and I visited Diablo Canyon and 
San Onofre nuclear power plants in California. During the 
visits to these facilities, we looked at seismic hazards, 
tsunami protection walls, and emergency preparedness.
    While in California, Commissioner Magwood and I also took 
the opportunity to meet with the San Luis Obispo Mothers for 
Peace, the San Luis Obispo County Board of Supervisors, and 
State emergency officials to listen to their feedback and hear 
their concerns. I have also recently traveled to the Wolf Creek 
plant in Kansas and the D.C. Cook plant in Michigan to look at 
measures in place for station blackout.
    Because of the importance of the NRC's post-Fukushima 
actions, the Commission has set an ambitious schedule for a 
series of voting papers related to the NRC staff's review of 
the Near-Term Task Force recommendations. Over the last 20 
months as a Commissioner, I have developed a great appreciation 
and respect for the competence and professionalism of the NRC 
staff. Their input to the Commission's decision process is 
vitally important, which is why I voted to ensure that their 
technical expertise has been provided to the Commission for our 
decisionmaking. The three Fukushima-related votes I have cast 
since our last meeting here with you in August have been shaped 
in large part by their insight.
    I join Commissioner Apostolakis in addressing recent 
reports in the media that we have been accused of slow walking 
and not taking steps for nuclear safety. I share Commissioner 
Apostolakis' statement of offense at those statements. These 
statements are inaccurate, they are misleading. We are not 
dealing with simple go or no-go decisions. These are 
complicated, highly technical matters requiring focused 
consideration and responsible decisionmaking.
    The senior level steering committee that we have as a 
Commission chartered has provided us with logical 
recommendations and prioritization of actions. I am pleased to 
tell all the members of this Committee that I am personally 
confident and pleased with where the Commission is making these 
decisions. I appreciate and respect the Committee's oversight 
role, and I look forward to your questions.
    [The responses of Mr. Ostendorff to questions for the 
record follow:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Senator Boxer. Thank you.
    Thank you all for your testimony.
    I am addressing this statement to all of us here as 
Senators, because I think there is a reason that the public 
approval of the Congress is 9 percent, and most of that 9 
percent probably are our families, and if we don't get home by 
Christmas, they will leave us, too.
    But I think a lot about why. And one of the things I come 
up with is that people look at us and they see us involved in 
personal attacks, us, rather than dealing with the policy. 
There is nothing wrong with having a policy dispute. We have 
them here, and I think we do very well.
    In this case, I am very disappointed with my colleagues on 
the other side. Because I think that this hearing, they would 
almost try to turn it into what Chairman Issa did yesterday, 
rather than look at the issues that you all addressed, frankly, 
happily, today. Good for you. The safety questions.
    So here is the thing. Our Committee is charged with 
ensuring that you do your job to make certain that our nuclear 
plants are as safe as they can be. And we all know that.
    And I will tell you, as long as I am Chairman, because some 
people sort of asked, they want to have some more hearings on 
this personnel matter. I am going to be clear, and maybe you 
can get another Chairman, I hope not, I hope you trust me 
enough, but I have to say that I will not allow this Committee 
to conduct witch hunts against anybody. Anybody. That is not 
what our function is.
    And I would also say in reference to whistleblowing--and I 
mentioned this to Senator Carper--when I look at the nuclear 
industry over the years, because I have watched it over the 
years, we have had very interesting experiences with nuclear 
power in California. In most communities, they have decided 
they would rather go another way, and in some communities they 
have embraced it. But I will tell you this: the whistleblowers 
are the ones that blow the whistle on safety problems. They are 
not the whistleblowers who blow the whistle on someone they 
don't like, or they think is this or that. So being a 
whistleblower is in the eye of the beholder.
    Now, Mr. Chairman, since we are supposed to be talking 
about safety issues, I want to ask you this question. I got a 
commitment from four out of the five that in 90 days you would 
vote on these. Mr. Ostendorff said, well, it is very 
complicated and took longer. OK. When are you planning to have 
a meeting where you are going to vote on these recommendations 
following Fukushima? What is your plan?
    Mr. Jaczko. Well, we won't at this point. We have taken 
them kind of piecemeal and looked at them in various ways. And 
the way the Commission functions, we don't have meetings to 
actually vote on activities.
    Senator Boxer. OK. So when will you begin, do you vote on 
the various recommendations? Let me put it that way.
    Mr. Jaczko. In general, I would say what we have voted on 
is the process to have the staff begin looking at the 
recommendations. But I would say in the first vote that I cast, 
I endorsed all the recommendations. I think in bits and pieces, 
the Commission has looked at various of the recommendations. 
But I wouldn't say we have kind of given a clear up or down 
vote on each of the recommendations yet.
    Senator Boxer. So in your opinion, as Chairman, how many of 
those recommendations is there majority support for going 
forward?
    Mr. Jaczko. I would probably, the clearest are the ones for 
which we have said are short-term recommendations. And those, 
it is basically five of the recommendations, I would say at 
this point there is majority support to move forward on.
    Senator Boxer. Would you and your fellow Commissioners send 
a letter to Senator Inhofe and myself outlining which five 
those would be?
    Mr. Jaczko. Absolutely.
    Senator Boxer. OK. Now I am going to ask about certain of 
those. According to experts, including the Institute of Nuclear 
Power Operations, the loss of electricity, as Senator Alexander 
has said, triggered the meltdown at the Fukushima plants, 
because it prevented the reactors from being properly cooled. 
To address an extended loss of power, the Task Force 
recommended that nuclear plants demonstrate they can run 
essential cooling and monitoring systems for up to 72 hours 
without being connected to the electricity grid.
    Mr. Magwood, starting from you, yes or no, do you agree 
with that recommendation?
    Mr. Magwood. I think that the recommendation, the thrust of 
the recommendation is correct. The specifics are the problem 
that I had with it. Seventy-two hours may or may not be the 
right number. So we started the process to find out how to 
approach that, and we have already launched that. Staff is 
already working with----
    Senator Boxer. So do you support having a system running 
for a period of time without being hooked up? Do you support 
that recommendation?
    Mr. Magwood. Yes.
    Senator Boxer. How about you, Ms. Svinicki?
    Ms. Svinicki. I believe this is Recommendation 4.1, and I 
did vote in support of beginning that activity.
    Senator Boxer. Good.
    You, Mr. Chairman?
    Mr. Jaczko. Yes.
    Senator Boxer. You, sir?
    Mr. Apostolakis. Yes.
    Senator Boxer. You, sir?
    Mr. Ostendorff. Chairman Boxer, I voted on this on 
September 16th, and also posited that this should be a high 
priority decisionmaking within 24 to 30 months. The majority of 
the Commission has concurred in that additional amplification 
to move this as a high priority rulemaking.
    Senator Boxer. Thank you very much. That is encouraging.
    Mr. Chairman, would you send me a letter, would you respond 
to questions I have about two other recommendations? One is 
recommending that reactors have technologies that would prevent 
the sort of hydrogen explosions that we saw in Japan, and the 
other has to do with--and this is very important to my State--
recommend that every 10 years nuclear reactor safety standards 
should incorporate any new information on the strengths of 
earthquakes, tsunamis, hurricanes, or other natural disasters.
    So if you could let me know your view, and please confer 
with the others to make sure you adequately represent theirs.
    Mr. Jaczko. Absolutely.
    Senator Boxer. Chairman, a non-partisan, non-profit 
organization called the Partnership for Public Service conducts 
an annual survey of more than 250,000 employees to rank the 
best places to work in the Federal Government. In the last 2 
years, the NRC's employees have ranked the Commission as No. 1 
or No. 2. You must be very pleased. It doesn't seem to indicate 
that you are the kind of person that runs around terrorizing 
people. Could you respond to how you felt when you felt you 
were rated that way?
    Mr. Jaczko. Well, I was very pleased. I think that is a 
strong statement from the staff of the agency that they have 
confidence in the leadership and confidence in the organization 
itself. And they have confidence in themselves. I think there 
is a very strong statement in support.
    Senator Boxer. OK. And Mr. Chairman, you have been attacked 
mightily from a lot of people from this dais about your 
character, your leadership, in a way that I think is wrong, 
harsh, and that is a nice way of saying what I think about it. 
I think it is wrong. And I want to quote from a conversation 
that you had with the NRC staff regarding your expectations 
concerning their view on the Task Force recommendations. This 
is what you said: ``I welcome your non-concurrences. I am not 
telling you to non-concur, I am not telling you to think any 
different than what you think. I welcome what you think. But 
there just needs to be a reason, and you need to be able to 
articulate it. Because this Task Force deserves to know that, I 
deserve to know that, the Commission deserves to know that, the 
American people deserve to know that.'' And you said, ``Does 
everybody understand that?''
    And I put this out there, because these are your words. 
This is what you told your staff. And it is what I would hope 
most leaders would do, which is to say to the staff, as a lot 
of us do, I hope, and I believe we do, tell us the truth, tell 
us what you think. We might not want to hear it, and we are 
going to get upset, but I need to know from you.
    And is that what your style of leadership has continually 
been, to tell people to tell you the truth, but to know that 
they have to back it up with facts?
    Mr. Jaczko. That is the way I like to lead. And I do 
challenge people to defend and support their views. I think 
that makes us stronger, it makes us better to understand. I can 
appreciate how sometimes people may find that challenging 
sometimes, and difficult. If I ever do that in a way that 
causes somebody to feel uncomfortable, I always want to know 
and would immediately address that and correct it.
    I think we have very good staff at the agency. But I think 
what we deal with is a very important subject matter. And it is 
important to get to the bottom of issues and to pursue them to 
their fullest.
    Senator Boxer. I agree, because as I said, I think the 
future of nuclear power is at stake, when I look at my own 
State and the angst of the people who live near those nuclear 
plants. They are very worried. And they will be a lot less 
worried, Commissioners, if you really step up to the plate on 
these recommendations. And if you don't step up to the plate, 
and it is slow walked for any reason, if I insult anybody, I 
don't mean to, but if it is slow walked, they are going to take 
matters into their hands, and they are going to take the 
ultimate protection, which is, you know what, we are done with 
these old plants. And people don't want that to happen.
    So it is really a lot of responsibility you have, not only 
to protect the people, but for the future of this industry.
    Senator.
    Senator Inhofe. Thank you, Madam Chairman.
    It is my intention to stay here for the entire hearing, 
however, I will be participating in a colloquy on the Senate 
Armed Services Committee with the Chairman and will have to 
leave for a short while, if called.
    Let me just say, Chairman Jaczko, that when you were first 
talked about and discussed in this position, I was at a deluge 
of people coming to me and saying he should not, you should not 
be in this position, because you are bringing your agenda in. 
And I remember talking to you about that at confirmation 
hearings, right here and in my office, privately. And I became 
convinced that they were wrong. And now I am convinced that 
they were right, and I was wrong.
    Now, I am going to ask you a series of questions, and I can 
do it in the time that I have, they are only yes or no 
questions. I don't want any long elaboration on this, because 
these are very specific. And when you hear them, you will 
understand.
    First of all, in your letter to Mr. Daley--we are talking 
about the White House, you wrote, ``As Chairman of our 
collegial body, I take responsibility for improving the level 
of our dialogue.'' Is that true, yes or no?
    Mr. Jaczko. Yes.
    Senator Inhofe. The NRC's Office of Public Affairs, that is 
the OPA, reports directly to you. This came with the 
reorganization that we have talked about from up here. So they 
report directly to you, is that correct?
    Mr. Jaczko. Correct.
    Senator Inhofe. So Eliot Brenner, the Director of that 
office, reports directly to you?
    Mr. Jaczko. Correct.
    Senator Inhofe. Here is what the NRC Web site says about 
the OPA. It says, the OPA, that is the Office of Public 
Affairs, manages and directs the agency's public affairs 
program, providing advice to agency officials and developing 
key strategies that contribute to increasing public confidence. 
This includes keeping top management informed of public 
interest in and news coverage of NRC's regulatory activities, 
as well as providing timely, clear, and accurate information on 
NRC activities to the public and the media through news 
releases, fact sheets, brochures, interviews, Web postings, and 
videos.
    Now, I say this because I think we can all agree that is 
what is supposed to be happening. And yet, some of you may be 
aware that last Friday evening, Representative Markey, who I 
guess was your boss at one time, released a report entitled, 
and I will read the title of it, Regulatory Meltdown: How Four 
Nuclear Regulatory Commissioners Conspired--and that is you 
four--Conspired to Delay and Weaken Nuclear Reactor Safety in 
the Wake of Fukushima. Representative Markey, your former boss, 
said in a statement about the report, this is in this report, 
``The actions of these four Commissioners since the Fukushima 
nuclear disaster has caused a regulatory meltdown that has left 
America's nuclear fleet and the general public at risk. Instead 
of doing what they have been sworn to do, these four 
Commissioners have attempted a coup on the Chairman and have 
abdicated their responsibility to the American public to assure 
the safety of America's nuclear energy.'' That is in this 
report.
    I have an e-mail here, and I am going to ask that it be 
made a part of the record----
    Senator Boxer. Without objection.
    Senator Inhofe [continuing]. An e-mail that was sent by 
Eliot Brenner, the Director of Public Affairs at the NRC, to a 
reporter. Now, since that, my staff has contacted other 
reporters. Three others have confirmed this. I have to conclude 
that all reporters were contacted by Eliot Brenner to receive 
similar information on this e-mail. And I would like to have a 
redacted version of this inserted into the record, which I have 
already done. I will read a portion of this e-mail.
    Now, this is Eliot Brenner talking to reporters. ``As we 
approach the Wednesday hearing,'' that is the hearing 
yesterday, ``it would be a useful exercise,'' reporters, ``to 
read two things: the 1980 reorganization plan, with an emphasis 
on the roles and responsibilities of the Commissioners and the 
Director and the Chairman, and also the Markey report. I got 
deep into the Markey thing and found it quite interesting.'' 
This was instructions to the reporters covering yesterday's 
meetings to read this report up here, which was about the four 
Commissioners.
    I would say, Chairman Jaczko, do you believe Representative 
Markey's report is an accurate characterization of the NRC's 
activities? Do you believe that?
    Mr. Jaczko. Well, I certainly think it is based on e-mails 
from my colleagues, and I was deeply disturbed when I saw the 
content of many of those e-mails.
    Senator Inhofe. Do you believe that this increases public 
confidence?
    Mr. Jaczko. No, I don't, and I think it is unfortunate that 
some of the communications that were going on with my 
colleagues, unbeknownst to me, were happening.
    Senator Inhofe. Well, you have answered the question, it 
does not increase public confidence. No, it doesn't, I agree 
with you on that.
    I can't tell you how stunned and appalled I am, and I will 
use the same characterizations, I suppose, as the Chairman, 
although I am on the other side of this. The idea that an 
official spokesman for the agency would encourage the media to 
read a report that is clearly designed to denigrate four 
Commissioners, to attack the agency's credibility, and to 
undermine public confidence, I think it is reprehensible. I 
have to echo some of the statements that were made by my 
colleagues who have served on this Committee. I have never seen 
anything like that, on this Committee or any other.
    Chairman Jaczko, when you committed to Mr. Daley to improve 
the level of dialogue with your colleagues, did he know you 
were going to use your authority as the agency's official 
spokesman to encourage media interest in a report that 
denigrates and personally attacks your colleagues?
    Mr. Jaczko. I never discussed these with Mr. Daley.
    Senator Inhofe. Oh, you didn't talk about this report? Were 
you aware that this report was being made by Mr. Markey?
    Mr. Jaczko. I was aware that he had requested e-mails from 
my colleagues, and I saw the report after it was completed.
    Senator Inhofe. So you were a part of that, then?
    Mr. Jaczko. No. I was not a part of that.
    Senator Inhofe. Oh, you weren't? He didn't ask you any 
questions?
    Mr. Jaczko. The only questions that were asked of my staff 
or myself had to do with e-mails that I had provided.
    Senator Inhofe. That is fine. You were aware of the report 
and the content of the report.
    Now, in your letter to Mr. Daley, you wrote, ``I continue 
to be unbelievably proud of the NRC staff and their single-
minded focus on the agency's mission.'' These staff that you 
are so proud of, are they the same ones that Representative 
Markey attacked, saying they conspired with the four 
Commissioners to delay the release of and alter the NRC Near-
Term Task Force report on Fukushima?
    Mr. Jaczko. I am not going to comment.
    Senator Inhofe. Well, these are senior staff.
    Mr. Jaczko. It is Congressman Markey's report, and it is 
really probably more appropriate to ask him about his 
statements.
    Senator Inhofe. Now, some of your supporters may say, well, 
it is not illegal, and they may be correct. A lot of things are 
not illegal, but it is still not right. And I think you owe an 
apology to your colleagues and the 4,000 men and women at the 
NRC.
    Now, in your letter to Mr. Daley you wrote, ``I assure you 
that I come to work every day to do my job better than the day 
before.'' Let me suggest to you, sir, that you reached a depth 
on Saturday, December 10th, that no NRC Chairman has ever 
reached during my time on this Committee. I think when you read 
the report, and you see that the person who answers to you, Mr. 
Chairman, is the one who is responsible for sending out the 
statement from this Committee, and it is one where he is 
saying, you need to read this report by Representative Markey 
who is targeting these four Commissioners on each side of you, 
that it is just totally unreasonable that this could be 
happening.
    The fact that he reports directly to you brings you into 
it, and I hold you just as responsible as I hold Mr. Brenner.
    Thank you, Madam Chairman.
    [The referenced information follows:]
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
        
    Senator Boxer. Senator Carper.
    Senator Carper. Thank you, Madam Chair.
    Mr. Chairman, Chairman Jaczko, in your testimony you 
mentioned that the Commission has agreed to move forward on, I 
think seven recommendations, maybe fewer, maybe you said five. 
Could you just give us a time line of when you believe those 
recommendations will be implemented by staff and completed by 
the Commission?
    Mr. Jaczko. It is not clear at this point, the staff has 
not fully developed time lines for completion. The last 
information I received was that for the orders on some of those 
near-term wouldn't probably be done until May or June. I 
indicated to the staff that that was unacceptable, that was too 
much time and we need to figure out how to accelerate that time 
table.
    Some of the letters that are so-called referred to as 50-50 
4(f) letters which are essentially requests for information 
would likely be done a little bit sooner. But I think we have 
taken probably too long to get to the point where we can 
actually get down and start having the staff do their work to 
really engage directly with the licensees. I would have hoped 
that we are farther along at this point, but we are where we 
are.
    Senator Carper. Just to follow up, I believe the Commission 
has stated that it hoped to complete and implement all the 
lessons learned from the Fukushima accident within 5 years. I 
think that would be by 2016. Based on the progress so far, do 
you think the NRC is likely to meet that goal?
    Mr. Jaczko. I think it is difficult to say. I think at this 
point, we haven't really laid out a really clear enough path, I 
think, to get to those 5 years. So certainly given that 
everybody has expressed an interest in doing it, I am hopeful 
that we will be able to accomplish it. But I am not sure that I 
see a plan yet that will get us there in 5 years.
    Senator Carper. If I could, Commissioner Svinicki, do you 
agree with those time lines? Do you believe that the NRC will 
meet them?
    Ms. Svinicki. I agree with Chairman Jaczko that there are 
not the detailed time lines yet. With that you could have a 
better degree of assessing whether or not it could be done 
within 5 years. But I still think that it is a reasonable 
target.
    Senator Carper. All right, thank you.
    Some of my colleagues, maybe even the Commission in the 
course of this questioning and testimony have alluded to, 
talked about the powers of the Chairman. And the powers of the 
Chairman I think were found to be, after the Three Mile Island 
accident, were found to be not clearly delineated. There are 
some who felt that the Chair, while the Chair would be the 
first among equals, but that the powers of the Chair were not 
as clearly delineated as they should have been.
    My understanding of history is because of that belief, 
after the Three Mile Island accident the Chairman was granted, 
I think by the urging of President Carter, was granted powers 
for emergencies and for day to day authorities. And not every 
Chairman has elected to fully use those powers. My 
understanding is that Chairman Jaczko has decided to use those 
powers, where others have chosen not to.
    I think back on the times in my own life, maybe other 
colleagues here can as well, when we had the authority, when I 
was Governor, when I was a naval officer, we had the authority 
to do a certain thing and chose to do something just a little 
differently because of the interest in building a team, 
cooperation, and civility. I would just ask that as you go 
forward that you keep that in mind, Mr. Chairman.
    The other thing I want to say is a question. A colleague of 
ours, Blanche Lincoln, whom Senator Boozman succeeds, a dearly 
beloved colleague from Arkansas, said during her re-election 
campaign last year, she used to say--I am sure the Chair 
remembers this--she used to say, what doesn't kill you makes 
you stronger. And I can't imagine that you are going through 
right now, yesterday or today, is something that you will 
remember fondly. But it is not going to kill you. It may make 
you stronger.
    My question is, will it make you a better leader? Will it 
make you a better chair? If so, how?
    Mr. Jaczko. Well, as I indicated yesterday, some of these 
things that are a concern of my colleagues I found out about 
yesterday. And I have offered to reach out and talk to them and 
for us to meet as a group to discuss these issues and better 
understand where my interpretation of the statute or where any 
of my actions have been, caused concern on their part. I think 
if they are willing to engage in that dialogue, I think that 
will invariably make--it will make the Commission stronger, 
which I think in the end my leadership is defined by how well 
the Commission functions.
    But I will say that I, in the end, I am committed to 
safety. I would always prefer a Commission in which we all 
agree, in which there are no conflicts and there are no 
disagreements. I don't think that is realistic, and I think 
where we have to continue to work is to figure out a way to 
disagree without their being personal accusations or things of 
that nature.
    Senator Carper. OK. Let me conclude if I can, then. In 
about less than an hour, the Chaplain of the Senate, Barry 
Black, will convene a Bible study group. He does this every 
Thursday at around 12:30 or so. And it is something that maybe 
seven or eight of those of us who need the most help show up. 
And he reminds us almost every week, as leaders in this 
country, that we are supposed to be humble, that we should 
practice and act as remembering and trying to challenge us with 
humility. He reminds us that we are servants, we are not to be 
served, we are servants, and we need to keep that in mind.
    And most of all, he reminds us to treat others the way we 
want to be treated. He describes the Golden Rule as the Cliff 
Notes of the New Testament. That is good advice for everybody 
on this side of the dais, and it is certainly good advice for 
the people who are sitting at this table, every one of you and 
particularly the Chairman. I would ask that you take that to 
heart as we try to every week. Thank you.
    Senator Boxer. Thank you, Senator.
    We will turn now, as I am looking at this chart here, to 
Senator Alexander.
    Senator Alexander. Thanks, Madam Chairman.
    Mr. Chairman, do you believe the 104 civilian nuclear 
reactors in the United States are operating safely?
    Mr. Jaczko. Well, we have varying degrees, I think, of 
operation. Just a day or so ago the staff did indicate, we 
placed one of our plants in what is called manual chapter 0350, 
which is a very strong statement by the agency that we have 
real concerns about the safe operation of that facility. It is 
currently not operating, it is shut down.
    So with the exception of that facility, all the plants are 
otherwise operating safely, with varying levels, I think, of 
successful performance.
    Senator Alexander. Thank you. And that includes the 23 
boiling water reactors that are like the reactor that was in 
Fukushima?
    Mr. Jaczko. Right now, again, we have, all of those plants 
are generally operating within our safe levels.
    Senator Alexander. Trying to understand the discussion 
about recommendations, do you agree that some of the 
recommendations are different from others, and there ought to 
be a priority in addressing them?
    Mr. Jaczko. Well, the way I look at priorities is I try and 
step back and figure out constraints. Because you prioritize in 
a situation where you have constraints.
    Senator Alexander. Well, I am just asking, is it 
appropriate to put some ahead of others?
    Mr. Jaczko. If there are resource constraints, yes, I think 
in principle we would act on all of these immediately and with 
the same level of dispatch.
    Senator Alexander. By acting, you don't mean complete your 
work on them, you mean set up a process to deal with them? Is 
that correct?
    Mr. Jaczko. Well, no, I think by acting on them I mean 
getting us to the point where plants are making modifications.
    Senator Alexander. Mr. Apostolakis said Recommendation No. 
1 was technical and complex and would take a good deal of time 
to complete. Is he wrong about that?
    Mr. Jaczko. I don't agree that that one will. It is more of 
a philosophical description about what we do with those events 
that are considered beyond design basis events. I think what 
the Task Force was really saying is that over the years, we 
have dealt with those types of events in our regulatory 
framework. We have just never given them a label. And to some 
extent, they were saying we should give that a label and call 
these so-called extended beyond design basis events. This is 
something many other of our regulatory counterparts in other 
countries do. It is not really that novel of a concept. I think 
it is something that we can move forward on.
    But from a practical standpoint, it is not necessarily 
changing any of the decisions at the plants.
    Senator Alexander. According to United States Code 5841, it 
says, ``Each member of the Commission shall have equal 
responsibility and authority in all decisions and actions of 
the Commission, shall have full access to all information.'' 
Can you think--have you provided each member of the Commission 
full access to all information?
    Mr. Jaczko. Absolutely. And I would note, Senator, that 
that is from the 74, I believe from the 74 energy----
    Senator Alexander. It is still the law, though, right?
    Mr. Jaczko. Correct, but there was an Energy Reorganization 
Act.
    Senator Alexander. No, but it didn't change that law, did 
it?
    Mr. Jaczko. It did change that provision, Senator. It 
changed the information provision statute.
    Senator Alexander. Mr. Chairman, I will follow that up with 
you. If you are right, I will accept your point. I think you 
are wrong.
    Mr. Jaczko. We have our general counsel here, too. He may 
be helpful in that.
    Senator Alexander. How about the testimony in 1980 that the 
Chairman may not withhold or delay providing information 
requested by the Commission, individual members shall also have 
full access to information? Is that still----
    Mr. Jaczko. Correct, and I would note, and I think probably 
where there is the need for continued dialogue is, the end of 
that provision states for ensuring that the Commission is fully 
and currently informed about matters within its functions. So 
that is, I think, where the tension exists at the Commission. 
Clearly, all information can't be provided to the Commission. I 
mean, I don't get access to all information within the agency. 
So what I have tried to do, which was one of the 
recommendations of the Inspector General in 1999, was to 
institute a more rigorous agenda planning process.
    Senator Alexander. I am going to save 30 seconds here for 
myself, if I may, so I don't go over my time. I thought Senator 
Carper's advice was pretty good about leadership. I have made 
some mistakes in my life, many times, and sometimes I have gone 
to the office of my Senate colleagues where I thought they have 
been unreasonable. And I have listened to them, and I have 
found in some cases I might have been. At least it provided a 
way to move forward.
    It is an extraordinary event when four members of the 
Commission, three appointed by the current President, say that 
they are not able to do their jobs because of the way you are 
doing your job. And Madam Chairman, I would hope you would 
reconsider your thought that this Committee, whose job is 
oversight, should not keep an eye on this. Senator Carper is a 
fair minded individual, and I would think that it is our 
responsibility to watch this, but your responsibility to 
straighten it out. And I think that starts with the Chairman, 
and I hope that happens.
    Senator Boxer. Well, since you asked me, what I said was, 
we are not going to have witch hunt. What I said was, we are 
going to absolutely continue this. I am going to have hearings 
every 3 months and bring the Commissioners back so we can keep 
track of this. Because when we hear from the Chairman, and I 
didn't hear anybody else dissent, that we are not on track to 
get these recommendations done, and that is the senior staff at 
the NRC, 135 years of experience, we are not on track to do 
this in 5 years, and that is a problem. So absolutely, we will 
have hearing and people can ask whatever questions they want.
    But I am not going to be holding a hearing like Chairman 
Issa did to delve into personnel matters and to delve into 
character assassination of anybody. Because I don't think that 
is appropriate at all.
    Senator Alexander. I don't think anyone on this Committee 
has suggested that we would like to participate in that, Madam 
Chairman.
    Senator Boxer. Well, that is good. I am glad. Then we are 
all in agreement. It is all going to be good.
    Senator Sanders.
    Senator Sanders. Thank you, Madam Chair.
    Let me begin by commenting on something. Senator Inhofe 
spent a bit of time criticizing an employee of the NRC for 
suggesting that reporters read a report published by 
Congressman Markey, a veteran member of the House and certainly 
in my view, one of the environmental leaders of the Congress. I 
would suggest that there is probably no member of this 
Committee, or no member of the U.S. Congress, who himself or 
herself or a staff member has not suggested to reporters to 
read something, a document coming from the U.S. Congress.
    Now, Senator Inhofe may not like that report. He is 
entitled to his opinion. But to criticize somebody working for 
the agency to say, read something published by a member of the 
U.S. Congress, that doesn't make a whole lot of sense to me.
    Senator Inhofe. Let me respond, since he mentioned my name.
    Senator Boxer. All right, let's freeze the time. Yes.
    Senator Inhofe. The statement that I read, and listen 
carefully, I ask my good friend, this is what the Markey report 
said, and this is what the employees that you referred to asked 
the reporters to read before yesterday's Commission. He said, 
the actions of these four Commissioners since the Fukushima 
nuclear disaster has caused a regulatory meltdown that has left 
America's nuclear fleet and general public at risk. Instead of 
doing what they have been sworn to do, talking about these 
four, these four Commissioners have attempted a coup on the 
Chairman and have abdicated their responsibility to the 
American public to assure the safety of American's nuclear 
power.
    I am not going to ask you if you think that is appropriate, 
I don't think there is anyone who would think that is an 
appropriate thing for them to go to the media to try to have 
them believe something before a hearing takes place.
    Senator Sanders. In all due respect----
    Senator Boxer. Go ahead, Senator.
    Senator Sanders. Senator Inhofe, I think you and your staff 
have asked reporters to look at some situations, information on 
global warming that many of us think are beyond comprehension. 
You are entitled to your views. Ed Markey is entitled to his 
views. You may disagree with them, you have every right in the 
world to disagree with them.
    All I am saying is, I don't see anything outrageous or 
wrong with somebody saying, here is a report published by a 
member of the U.S. Congress. I understand you don't agree with 
it, maybe I agree with it, I don't--I don't know, I haven't 
ready it. But I don't think that is a subject for much 
criticism.
    Let me get back to, if I might, Madam Chair, just where I 
wanted to go. I want to get back to the point here that I think 
underneath a lot of what we are hearing today is philosophical 
disagreements about the role of the NRC in terms of nuclear 
safety. And I do not criticize the integrity or the honesty of 
anyone. People are entitled to have different points of view on 
this Committee. Senator Sessions and I are old friends, we like 
each other. We disagree, correct? Doesn't mean to say I don't 
think he is a decent and good person.
    But let me get back to--let me ask Chairman Jaczko a 
question. As I understand it, please correct me if I am wrong, 
there are 48 reactors in this country who still do not comply 
with fire safety rules established in 1980 and amended in 2004 
to ensure that fires do not threaten backup power systems that 
could prevent a meltdown in an emergency. This year, as I 
understand it, four Commissioners voted to approve a delay for 
compliance until 2014. You, Mr. Chairman, did not. Can you tell 
us why you did not and where your differences of opinion are 
with the other four members?
    Mr. Jaczko. I think the big difference was really in 
whether or not we should ignore enforcement process for those 
plants that were not moving forward with the new provisions. I 
felt that after all of these years, if plants weren't going to 
move to our new regulatory system, they should be subject to 
having their violations counted in our enforcement process. If 
they had areas in which their fire protection programs weren't 
meeting our standards, those needed to be processed through our 
normal enforcement. I felt that that would be a strong way to 
encourage plants to ultimately get to complying with this new 
regulation.
    The other area where I think there was strong disagreement 
is, I believe at this point that this new regulatory structure 
or program which is I think much better for safety should be 
mandatory, that we really shouldn't be in the business of 
giving licensees the option of pursuing a new regulation. It 
really should be mandatory and something that they have to 
comply with. That way, I think we would actually get to the 
business of adopting these requirements.
    Senator Sanders. Let me ask you another question. After the 
tragedy at Fukushima, as I understand it, senior NRC staff made 
12 recommendations for improving the safety of nuclear power 
plants in the United States. As I understand it, you asked your 
colleagues to make a final decision about what changes the NRC 
should make so that action could be taken. As I understand it, 
a majority of the Commission instead asked for the staff to 
provide even more information, some of which could take years 
to develop before making any decisions. Why did you vote one 
way and a majority vote another way on that issue?
    Mr. Jaczko. Well, I think, again, I can't why the others 
did. I felt that I had enough information at that point to 
endorse the recommendations. I also provided the Commission a 
plan for how we could solicit additional stakeholder input 
before we made a final decision and how we could solicit 
additional input from the staff, as well as from our Advisory 
Committee on Reactor Safeguards. And the plan was designed to 
get us all of that information, so that we could make a final 
decision in 90 days.
    But I felt a responsibility, having helped establish that 
Task Force with the Commission's concurrence, I felt a 
responsibility to support their recommendations. They worked 
very hard, their recommendations have withstood all the other 
reviews and demonstrated that they were a solid set of 
recommendations. So I was comfortable taking that, I thought it 
was a statement of my leadership of the agency to endorse those 
recommendations at that time.
    Senator Sanders. All right.
    Madam Chair, thank you very much.
    Senator Boxer. I thank you, Senator.
    We now turn to Senator Sessions.
    Senator Sessions. Thank you, and Senator Carper, thank you 
for your wise advice to all of us.
    Let me ask this. Former Chairman Meserve, when he declared 
emergency powers after 9/11, declared it openly that he was 
doing so. He did so in consultation with his fellow 
Commissioners, and he assigned his fellow Commissioners 
specific duties and tasks so they were fully involved in all 
aspects of this.
    Commissioner Ostendorff, you have a distinguished military 
record. Would it be fair to say that, I think it would be fair 
to say, you know a thing or two about crisis management. Were 
you aware and did the Chairman make any formal announcement 
that emergency powers had been exercised when he was doing so?
    Mr. Ostendorff. Senator Sessions, I along with other 
Commissions did receive, and I think Chairman Jaczko's comments 
about providing briefings to Commissioners early on, I agree 
with the Chairman's characterization. We were receiving 
briefings, and I think the information flow as to what was 
happening in Japan was appropriate.
    That said, I did not think that we had the clarity of 
whether or not there had been an emergency power declaration. I 
did discuss this in a one on one meeting with Chairman Jaczko 
March 31st and expressed some concerns that there is a lack of 
clarity here.
    Senator Sessions. As a military person, when somebody 
assumes command of a situation, altering the normal chain of 
command, that should be crystal clear, should it not?
    Mr. Ostendorff. From my experience, yes, sir.
    Senator Sessions. Chairman Jaczko, do you believe that 
under the Reorganization Act of 1980 the Chairman is allowed to 
withhold or delay providing information requested by other 
members?
    Mr. Jaczko. There is certain information that in 
particular, the question has been on budget information, that 
as the Chairman formulates and develops that information that 
that is not provided to the Commission. That has been 
established in our Commission procedures. So there are areas in 
which there is information that is not provided to the 
Commission. If there is ever an area of doubt, the Commission 
has the opportunity to, as a voting matter, to specifically 
state that they wish to get the information, and the 
information is provided.
    Senator Sessions. Well, the statute--I believe Senator 
Alexander is correct--is still in effect. I hope you understand 
that. And it says each member, including the Chairman, shall 
have equal responsibility and authority in all decisions, and 
shall have full access to all information. Do you agree with 
that, or do you think you are not bound by that, the Chairman 
can decide what he wants to reveal to the other members and 
screen information going to the other members?
    Mr. Jaczko. As I said, the 1980 Reorganization Act 
indicates that the Commission is to be kept currently and fully 
informed about information within its functions. So there is 
some information within the Commission, within the agency, that 
was not within a function of the Commission. And that 
information is not routinely provided to the Commission.
    Senator Sessions. Well, I don't agree. I believe you are 
misinterpreting the plain statute. I don't know why you would 
deny equal voting members any budget information. Are there any 
other information or data that you think you have a right to 
deny the other members?
    Mr. Jaczko. Senator, if I could just add that, certainly, 
when it comes to voting matters, I am always providing 
information to the Commission. As my colleagues have stated now 
I think twice in front of congressional hearings, they have had 
all the information they have needed in order to carry out 
their voting responsibilities. So where I think again there are 
some areas where we can continue to work and better understand 
the situation is in those areas that are not routinely within 
the functions of the Commission. And providing that information 
has sometimes been an area of dispute and disagreement. And 
that is where I want to continue to better have a dialogue.
    Senator Sessions. Well, I think the problem with the 
dispute is that you don't acknowledge you have a full duty to 
immediately respond to the inquiries of your Commissioners and 
share with them any information you have on any matter related 
to the Commission. And if you don't acknowledge that, then I 
think we have a real problem. I don't believe it is a 
personality problem.
    I believe it is a question about management according to 
the law of the United States. Isn't it true that the Inspector 
General on June 6th in his report found that you control 
information, that you act as a gatekeeper for information that 
goes to the Commissioners?
    Mr. Jaczko. I do not believe the Inspector General made 
that as a finding. I believe the Inspector General indicated 
that staff had made those comments. But it was not a specific 
finding, I believe, of the Inspector General. I would have to 
check to the record, though. I can get back to you on that.
    Senator Sessions. Let me just ask the other members of the 
Commission. Do they have concerns that the Chairman----
    Senator Boxer. Time is out. We will have another round of 
questions.
    We move along to Senator Lautenberg.
    Senator Lautenberg. Thank you, Madam Chairman.
    I want to ask the Chairman----
    Senator Boxer. Chairman Jaczko, you can correct the record, 
if you wish, after Senator Lautenberg finishes.
    Mr. Jaczko. I apologize.
    Senator Lautenberg. I just didn't want anything to be not 
heard or misunderstood. You faced some criticism for pushing 
the Commission to act so quickly to make and implement 
recommendations for improving nuclear safety in the wake of the 
Fukushima disaster. Why were you so insistent that the NRC move 
quickly on these recommendations, being challenged and cloaked 
in what I think is a little bit indirect language? Was it too 
hasty?
    Mr. Jaczko. Well, I didn't think it was too hasty. We had 
asked the Task Force to complete their work within 90 days. And 
the bulk of the work was done then, because of the report that 
they issued. It was a very thorough and very readable report, 
had done a tremendous amount of research and investigation to 
get to the conclusion. So I thought it was reasonable that the 
Commission could review that information and respond to it 
within about the same amount of time, in 90 days.
    Senator Lautenberg. Because I am reading from the Markey 
report, from the committee report that says the four 
Commissioners attempted to delay and otherwise impede the 
creation of the NRC Near-Term Task Force. They conspired with--
it goes on to make an accusation here that, I give it to you 
without my confirmation--that is, conspired with each other and 
other senior NRC staff to delay the release of or after the NRC 
Near-Term Task Force report on Fukushima. So this policy 
difference, can you imagine why it is that they thought that 
more time could be employed and not rush this thing along? But 
then you wanted the Commissioners--Mr. Magwood, do you want to 
respond to that?
    Mr. Magwood. Certainly, thank you, Senator. As I recall, 
there was never really any discussion about delaying the 
formation of the Task Force. I think we were all very 
supportive of it, and it happened very quickly. Regarding the 
issuance of the Near-Term Task Force report, the only 
discussion that I ever recall about delaying it was to provide 
a couple of days for the Commission to actually read the report 
before it went public. Because obviously we were going to be 
approached with questions.
    So the only conversation I ever had with any other 
Commissioner was whether it made sense to release the report 
the day it became available, versus giving us a couple of days 
to read it, so we would understand it.
    Senator Lautenberg. So is that where the, one of the most 
serious criticisms lay, and that is that is there is a couple 
of days difference? Do you think that the Chairman was hasty in 
moving to get the report done?
    Mr. Magwood. No, of course not. No.
    Senator Lautenberg. Because it is characterized as a 
blemish, and I don't really understand why that is.
    Mr. Magwood. I didn't understand that, either.
    Senator Lautenberg. While I am chatting with you, 
Commissioner Magwood, when you were nominated to the NRC, more 
than 100 environmental groups wrote a letter opposing your 
appointment, saying Mr. Magwood's background, experience, and 
apparently key interests are in the realm of nuclear power's 
promotion, not its regulation to protect the public health, 
safety, and the environment. And when you were being sworn in, 
the NRC report says that, makes note of the fact that you have 
a distinguished career in the nuclear field, public service. 
But it does also point out that you served 4 years as its 
associate director, the Office of Nuclear Energy, the associate 
director for technology and programs. It is a fairly high 
comfort level with the industry, and I just wonder whether they 
were of help to you in trying to move schedules along and 
things of that nature.
    Mr. Magwood. No, actually my role at DOE was principally 
associated with advanced research, advanced technology. So I 
actually spent most of my time working with national 
laboratories, universities. We obviously had some programs that 
engaged with the industry. But it really wasn't the principal 
area of work that we had. We had one very important program, 
Nuclear Power 2010, but outside of that, my industry 
interactions were actually pretty limited. We worked really 
close with international partners on advanced technology, 
research cooperation.
    Senator Boxer. Sorry, Senator. We are going to have another 
round, but we have to move. I am so sorry to interrupt both my 
friends on either side of the aisle, but we just need to move.
    Senator Barrasso.
    Senator Barrasso. Thank you, Madam Chairman.
    Today, New York Times, Leader of Nuclear Agency Hears 
Litany of Objections; Washington Post, Fellow NRC Members 
Accuse Chairman of Bullying Tactics; Madam Chairman, I would 
like to introduce both of those.
    Senator Boxer. Sure.
    [The referenced information was not received at time of 
print.]
    Senator Barrasso. Thank you.
    The New York Times article, first paragraph, ``In exchanges 
that ranged from merely testy to caustic, four members of the 
Nuclear Regulatory Commission told a House Committee on 
Wednesday that their Chairman had withheld information from 
them, berated the agency's professional staff, reduced female 
employees to tears with abusive comments, and created a chilled 
atmosphere that was hurting the agency's ability to function.''
    So I ask the Chairman, in the hearing yesterday, 
Commissioner Magwood alluded to three career women at the NRC 
who ``were brought to tears'' and who felt humiliated by your 
actions. I think these are the same incidents that Commissioner 
Svinicki called outbursts of rage by you. The Democrat Ranking 
Member Cummings of that Committee yesterday said that he was 
concerned as a father of two daughters about hearing about 
these incidents. His exact words were ``It concerns me.'' He 
asked you whether the allegations were true. I don't think that 
your answers were clear.
    Well, I have two daughters, and I want to know also. Are 
these allegations true? Yes or no.
    Mr. Jaczko. No. I was shocked, and I was, I have to say 
mortified, to hear those statements. I have a wife, I have a 
sister who had a daughter just about 12 days ago. And I have 
interacted and worked with a tremendous number of people at the 
agency, including a large number of women. And I have never 
intentionally berated, threatened, bullied, or intimidated any 
member of the staff.
    I can at times, as I have said, be passionate, be intense 
in my questioning. And if that has ever, ever led to an 
emotional reaction by somebody, I would want to know that, and 
I would address it immediately.
    Senator Barrasso. Thank you.
    Commissioner Magwood, at yesterday's hearing you spoke 
about a growing cancer of a chilled work environment because of 
the Chairman. You talked about verbal abuse, screaming, pointed 
language toward women by the Chairman. The White House is 
recommending that a third party mediator should try to work 
things out between the Commission and the Chairman.
    Based on your long experience, is that the type of solution 
that the private sector would do to respond to charges of 
harassment and a hostile work environment? Meaning, shall we 
bring the accuser and the accused together and say, work it 
out?
    Mr. Magwood. I think in the private sector, likely not. But 
this isn't the private sector, so I recognize that the solution 
space is more complex. And I should say, though, whatever 
happens going forward it is my determination that I will 
continue to serve my role as a Commissioner the best I can 
under the circumstances.
    Senator Barrasso. Thank you.
    Mr. Chairman, yesterday Congressman Chaffetz of Utah asked 
a simple question, whether you did anything wrong. I think 
Congressman Labrador asked the same question. I didn't feel 
that there was really a clear answer to those. That is a simple 
question. Are any of the charges made against you from the four 
other Commissioner or from the NRC staff true?
    Mr. Jaczko. Well, my experience has been that there is not 
a chilled work environment. I interact with staff on a daily 
basis, they tell me their views frankly and candidly. So I have 
not seen a situation in which people are afraid to raise their 
views with me.
    As I said, I can be passionate, I can be intense. I am 
committed to the safety job that I have. And if that has ever 
been misconstrued or misinterpreted, I want to know that 
immediately, so that I can address it and assure people that it 
is simply not the case.
    But I would note that I have had for 2 and a half years the 
same core group of senior managers. I have had over 15 or more 
staff working in my personal office, 10 of whom at this time 
are women. None of them has ever expressed any concern to me, 
and I think they very much enjoy working for me.
    Senator Barrasso. Just to all the other Commissioners, I 
think Commissioner Ostendorff, yesterday you testified you 
believe you had fulfilled your oath of office by signing a 
letter to the White House expressing your serious concerns 
about the chilled work environment at the NRC. To the 
Commissioners, did all of you believe that you signed the 
letter to the White House agreeing at the time you were 
fulfilling your oath of office to the American people by 
signing the letter?
    Mr. Ostendorff. Yes, sir.
    Senator Barrasso. Thank you. Commissioner.
    Mr. Magwood. Yes.
    Senator Barrasso. Commissioner.
    Ms. Svinicki. Yes, Senator.
    Senator Barrasso. Commissioner.
    Mr. Apostolakis. Yes.
    Senator Barrasso. Thank you. I agree. Thank you for 
fulfilling your oath of office.
    Senator Boxer. Thank you very much, Senator.
    We will now turn to Senator Sanders. Oh, I am so sorry. 
Senator Udall.
    Senator Sanders, you will be the next Democrat. I will 
waive my time.
    Senator Udall. Thank you, Chairman Boxer.
    The New York Times article that was just read talked about 
withholding information. Has the Commission received all the 
necessary information to implement the Task Force 
recommendations? And if not, what additional information is 
needed? It seems to me there is a simple answer to that. Maybe 
I will just start here. Have you received all the necessary 
information that you have needed in order to act upon these 
Task Force recommendations?
    Mr. Magwood. Yes, I believe so.
    Ms. Svinicki. Yes, Senator.
    Mr. Apostolakis. Yes.
    Mr. Ostendorff. Yes, with one exception. And this was 
noticed in our letter to the White House, that the original 
SECY paper 110093 presented to the Commission on July 12th of 
2011 did not contain the detailed staff recommendations that 
were originally part of the staff recommendations as to how to 
proceed.
    Senator Udall. Have you received those now?
    Mr. Ostendorff. We received those, there were a number of 
different versions of these. That paper was sent to the 
Commission then withdrawn very shortly after that. Other than 
that particular piece, I do believe, Senator, I have received 
information I have needed for this report.
    Senator Udall. Thank you.
    Mr. Jaczko. Senator, if I could just add.
    Senator Udall. Yes, Mr. Chairman, go ahead.
    Mr. Jaczko. That is one of the areas that my colleagues 
have expressed concern about. I would note that there was a 
paper that was provided. It did not contain any specific 
recommendations, and moreover, in my discussions with senior 
staff, I felt actually it mischaracterized the position of the 
staff, because the entire staff had not yet been fully 
consulted about and sought and had their views sought about the 
recommendations.
    So I felt it was not properly characterizing the situation. 
I actually notified all of my colleagues in person that I was 
going to have that paper withdrawn and replaced with just a 
straight cover memo transmitting the recommendations.
    At that time, none of my colleagues expressed an objection 
to that course of action or expressed any concern about that 
course of action.
    Senator Udall. Thank you.
    Chairman Jaczko, the NRC's Near-Term Task Force issued 12 
recommendations for U.S. nuclear plant safety to be improved. 
And it is my understanding that the Commission has directed 
immediate implementation of 7 of the 12 Near-Term 
recommendations and did that on October 20th. When you look at 
the recommendations, they are very concrete things. I just pick 
out a few here: order plants to evaluate and upgrade the 
necessary seismic and flooding protection, strengthen station 
blackout mitigation, order reliable hardened vents in boiling 
water reactor facilities, enhance the capabilities and 
instrumentation of spent fuel pools, which we know are a 
concern out there.
    Have these recommendations been fully implemented? What has 
been done on the ground at this point? And mind you, everybody 
should know that March 11th was when the incident took place. 
We are approaching an anniversary here in a couple of months.
    Mr. Jaczko. Well, we really haven't done much yet on the 
ground, from a direct regulatory perspective. The industry, to 
their credit, has begun to do some of those things on their 
own. At a meeting, actually, with one of our advisory 
committees just a few weeks ago, in fairly direct terms, in 
terms I had heard from a chairman of that advisory committee, 
he stated pretty much that we had spent the last 8 months doing 
a lot of talking and it was time to get down to doing some 
actual work. And I think that was a good wake-up call for the 
Commission, that we really need to get on with the business of 
getting these recommendations into the plants and getting 
changes made in the plants.
    So I think we are at that point now, where we can begin 
that. But we still have some work to do to get there.
    Senator Udall. When do you think that will happen? What is 
your sense of the timing right now?
    Mr. Jaczko. Well, as I said, the most near-term has to do 
with the series of orders and what the staff has told me at 
this point is that they were targeting for May or June. I have 
told them that they need to go back and re-think that and come 
up with a tighter timeframe. So I haven't heard yet what the 
result of that is. But I expect it to be sooner than May or 
June.
    Senator Udall. Thank you. Thank you very much.
    Thank you, Madam Chair.
    Senator Boxer. Thanks so much.
    Senator Vitter.
    Senator Vitter. Thank you, Madam Chair.
    Mr. Chairman, I am very concerned, as I stated, about some, 
many, of these specific suggestions that have come up. And you 
had an exchange with my colleague, Senator Barrasso, a minute 
ago, and I want to revisit it. I am not asking about your 
intention. I am asking, did you ever have an exchange with 
staff that led to, that involved staff breaking down in tears?
    Mr. Jaczko. Not in my presence, no.
    Senator Vitter. OK. Did you have such an exchange that led 
to their breaking down in tears shortly thereafter outside of 
your presence?
    Mr. Jaczko. I--I only learned of the possibility of these 
events in the last several days, prior to the hearing 
yesterday.
    Senator Vitter. OK. So you have learned of that. And how 
many instances have you learned of?
    Mr. Jaczko. Well, all I know is what has been stated by the 
Commissioners in the hearing. I have not had any staff come to 
me and specifically tell me that there has been a problem. I 
would welcome that, and if there had been----
    Senator Vitter. Well, if they were driven to tears, you 
might understand why they may not approach you.
    Does this learning of this information concern you?
    Mr. Jaczko. Absolutely. As I said, if I have ever done 
anything to cause----
    Senator Vitter. What are you going to do about those 
specific instances?
    Mr. Jaczko. Well, I would be more than happy to, to discuss 
it with the individuals if they want and remedy in whatever way 
is appropriate. But again, I have not been----
    Senator Vitter. What do you plan on doing in terms of your 
future behavior in light of these specific instances?
    Mr. Jaczko. Well, I certainly would want to understand what 
in my approach led to that, and of course I would not take any 
kind of action that could lead to a reaction like that 
inappropriately.
    Senator Vitter. OK. Let me ask the other four 
Commissioners, without naming names of staff, do you know of 
such instances?
    Mr. Ostendorff. Senator, I had a--I am not going to name 
the individual, I am aware of three senior executive service 
females who have been yelled at by the Chairman and one of them 
has told me directly that she was utterly humiliated by that 
interaction.
    Mr. Apostolakis. I have not had a personal experience of 
this happening.
    Ms. Svinicki. I am aware of these events.
    Senator Vitter. Commissioner, how many events are you aware 
of?
    Ms. Svinicki. I am aware of three events.
    Senator Vitter. Mr. Magwood.
    Mr. Magwood. As I discussed yesterday, certainly there are 
three of them, I have had personal contact with the women 
involved and talked with them about the incidents.
    Senator Vitter. OK. Mr. Chairman, my guess is these women 
don't want to have a conversation with you, for obvious 
reasons. So in light of that, what are you prepared to do about 
this in terms of those events and maybe even more importantly 
in terms of future behavior?
    Mr. Jaczko. Well, again, without knowing more specifics, 
I--it is hard for me, it is certainly something I would be 
happy to talk to my colleagues about, and they can perhaps give 
me some more specifics about what caused the, what caused the 
concern. And of course I will do whatever I need to do to 
address it.
    Senator Vitter. And right now, you have no guess what 
caused this reaction?
    Mr. Jaczko. You know, as I said, there are times in which I 
can question people intensely, and that is something that I am 
aware of in my style that----
    Senator Vitter. Do you plan to change that style?
    Mr. Jaczko. I work on it every day to do it and to do it 
better.
    Senator Vitter. Let me ask the other four Commissioners, in 
terms of instances of not receiving requested information, can 
you outline any instances of where you requested certain 
information, budget, anything else, and didn't receive adequate 
information in your opinion?
    Mr. Ostendorff. I have already mentioned the withdrawal of 
the SECY paper, and the Chairman appropriately acknowledged 
that I discussed that with him and he discussed it with his 
colleagues. I did not agree with how he handled that. I did not 
agree with his characterization of the staff's viewpoints in 
that paper for SECY 110093. I have had concerns on provision of 
other information to the Commission with respect to a paper 
that came up in August that I do not believe recommended the 
staff's best recommendation as to how we should proceed with 
respect to alternative licensing periods for the Vogtle Nuclear 
Power Plant.
    Senator Vitter. Any other Commissioners?
    Mr. Apostolakis. I received a paper recently that I cannot 
name what it does, because it is in front of the Commission. 
But it had four options. And the recommendation was to go with 
Option D. And then I learned from the staff that the staff 
really thought and would have recommended Option B, but they 
were pressured to change that.
    Senator Vitter. Can I just follow through on that?
    Senator Boxer. No, I am holding everybody. There is 
another--I am holding everybody to their time.
    Senator Vitter. I would like him to finish answering my 
previous question. That is the norm around here.
    Senator Boxer. Well, excuse me. We changed it, and I have 
cut off Democratic Senators and Republican Senators because we 
are running out of time, the Commissioners and us. So we are 
going to move on. But there is going to be another round.
    Senator Vitter. Madam Chair, that all happened after the 
question up was finished.
    Senator Boxer. No, it isn't true. I cut off right in the 
middle of an answer, because we don't have the time. But we are 
going to have another 5 minutes apiece.
    Senator Vitter. Well, we had better make the time for this. 
We had better make the time for this.
    Senator Boxer. Senator, I will sit here as long as you 
want. I will sit here as long as you want. I am a fair person. 
We are going to have a second round. And I am giving up my slot 
to Senator Sanders. And I will take mine at the end.
    Senator Sanders. I am not comfortable with the direction in 
which this questioning is going, and I think the door was 
opened by Mr. Barrasso. I think we are asking Chairman Jaczko 
to comment on issues that he is not even aware of. We are into 
this beating of your wife business.
    But the door has been opened. It was opened by Mr. 
Barrasso, the door was opened by Senator Vitter. So I am going 
to ask Mr. Magwood a question. I think Senator Barrasso quoted 
from the New York Times. Let me quote from Huffington Post, one 
of the larger online news publications in the country. And this 
is what the Huffington Post says on December 12th, 2011: ``Bill 
Magwood, the man at the center of an effort to overthrow the 
Chairman of the Nuclear Regulatory Commission, and his most 
likely successor if the move is successful, served as a 
consultant for TEPCO, the Japanese company that owns the 
Fukushima Nuclear Power Plant, according to information 
provided by Magwood as part of his nomination and confirmation 
process, which is obtained by the Huffington Post.''
    Another comment in the Huffington Post piece, ``When 
Magwood was nominated by President Obama in 2009 to become a 
Commissioner, nearly 100 environmental groups, along with the 
Project on Government Oversight, urged his defeat in the 
Senate, arguing that he was too close to the industry to be 
tasked with regulating it.''
    Further quotes, ``Since joining the body, Magwood has 
coordinated with the two Republicans and the other Democrat on 
the panel to delay and water down new safety reforms pushed by 
Jaczko, according to the e-mails made public by Markey. 
Following the Fukushima disaster, Jaczko has made a major 
effort to increase safety standards, an effort that is being 
closely watched by international regulators and nuclear 
companies across the globe.''
    Let me ask, and again, I am not comfortable in doing this, 
but I think after hearing Mr. Barrasso and Mr. Vitter, we have 
to ask some questions as well. And that is, Mr. Magwood, this 
article suggests that if for whatever reason Mr. Jaczko was 
forced from his job that you are ready to take it over. Are you 
prepared to tell us, as a member of the Commission, that is not 
the case? That if for whatever reason Mr. Jaczko left his job, 
that you would not take the position of Chairman of the NRC?
    Mr. Magwood. As I mentioned yesterday when I was asked the 
question about whether the Chairman should be removed, I gave 
the opinion that, my role and my responsibility was to provide 
truthful information as I saw it. It is not to make personnel 
decisions. So I am not going to make a recommendation.
    Senator Sanders. That wasn't my question, Mr. Magwood.
    Mr. Magwood. And similarly, I wouldn't make a 
recommendation or make a comment about what my role would be 
either.
    Senator Sanders. Well, that is an interesting point. It is 
an interesting point, because according to the Huffington, I am 
not saying it is right or wrong. According to the Huffington 
Post, you have been involved in a ``coup'' to get rid of Mr. 
Jaczko. I don't know if that is true or not. According to this 
publication, you may be, if he is gone, in line to become the 
Chairman. I am asking you a simple question: will you tell us 
that you, that that is not true and that you would not accept 
the Chairmanship if Mr. Jaczko left?
    Mr. Magwood. Let me first say that I don't think that my 
characterization as a coup leader is any way correct.
    Senator Sanders. OK, fair enough.
    Mr. Magwood. I think that we work--we talked a lot about 
sending this letter to the White House. It was a mutual 
decision among the four of us. I don't think there was a coup 
leader.
    Why I have been singled out, I can only guess. But let me 
just say that I am not even the senior Democrat on the 
Commission after Mr. Jaczko. So why people point the finger at 
me, I don't know.
    Senator Sanders. But see, you didn't answer my question. I 
am not saying I agree or disagree with what the Huffington Post 
wrote. I am not saying that. I am just, as Mr. Barrasso did, I 
am quoting from a publication. You didn't answer my question, 
though. And my question was, if Mr. Jaczko, as a result of 
political pressure, was forced out of his job, will you tell us 
now as a member of the Commission, who some suggest, I am not 
suggesting it, were involved in that action, are you telling us 
now that no, you are not interested in becoming Chairman to 
replace Mr. Jaczko?
    Mr. Magwood. Let me say I have ever really expressed much 
interest in being Chairman. I think it is a very time consuming 
and very difficult job. I hadn't exactly come on the Commission 
with that in mind. But I also won't sit here and tell you that 
if the President asked me to serve a role like that, I would 
turn it down. I am not going to say that.
    Senator Sanders. Madam Chairman, I find that is a very 
interesting remark. Thank you very much.
    Senator Boxer. Thank you very much.
    Senator Inhofe.
    Senator Inhofe. OK, I was going to suggest that the 
President would be making that decision anyway, and I seriously 
doubt he would--anyway. Let me just real quickly, Mr. Jaczko, I 
understand the NRC Inspector General reports directly to the 
Chairman, is that correct?
    Mr. Jaczko. I am sorry?
    Senator Inhofe. That the NRC Inspector General, the 
Inspector General reports directly to the Chairman. That is 
you.
    Mr. Jaczko. It is a very loose reporting relationship.
    Senator Inhofe. OK, but that is what I understand from the 
1980 changes that are there. I assume you would say yes.
    Mr. Jaczko. Well, again, with all due respect----
    Senator Inhofe. I don't want to take a lot of time on it. 
At any time, did you seek to influence the Inspector General in 
any way or delay his investigation?
    Mr. Jaczko. No.
    Senator Inhofe. Mr. Ostendorff, I understand, and I know 
the process here, but I think you will have to explain it, I 
understand that a new reactor applicant sent a letter to the 
NRC asking that the agency waive an administrative delay 
between approval of a new plant license and its effective date. 
I also understand that the NRC staff presented that paper to 
the Commission, recommending retention of the delay. Is that 
correct?
    Mr. Ostendorff. Yes, sir, that is correct.
    Senator Inhofe. Now, that delay really inures to the 
benefit of the applicant, to give them time.
    Mr. Ostendorff. Let me explain it. I think it also will 
help clarify the Senator Vitter question we were trying to get 
to when time ran out. The paper that Commissioner Apostolakis 
was referring to with respect to the staff recommendation being 
different from what we thought it was going to be, based on our 
discussion with the office director, we are talking about the 
same paper. And the staff had told us that there was no nuclear 
safety issue at all involved in the process once this basically 
Federal Register notice is transmitted from the NRC down to the 
Office of Management and Budget.
    Hence, it was the office director's recommendation at that 
point in time that the effective date of this rule be tied to 
the time period of transmission to OMB. And that was the 
recommendation that Commissioner Apostolakis and I were 
referring to.
    Senator Inhofe. OK, so both the Director of Nuclear 
Reactors agreed with the statement you just now made?
    Mr. Ostendorff. This was the Director of the Office of New 
Reactors.
    Senator Inhofe. New Reactors, that is correct. New 
Reactors. And does this administrative delay have any safety 
implications?
    Mr. Ostendorff. No, sir, it does not.
    Senator Inhofe. If I understand it correctly, Chairman 
Jaczko--no, I will go ahead and yield my last couple minutes to 
Senator Vitter, because he wanted to get the remainder of his 
answer.
    Senator Vitter. I appreciate that very much. Picking up on 
the information flow issue, Mr. Chairman, does the whole 
Commission not vote on a budget or budget issues?
    Mr. Jaczko. Yes, at a high level, yes, it does.
    Senator Vitter. OK, so I don't understand your previous 
comment that budget information, detailed budget information 
should not be provided, certainly upon request, to 
Commissioners.
    Mr. Jaczko. They are, based on the statutory history, the 
Chairman is solely responsible for preparation of the budget.
    Senator Vitter. This is a voting matter. Wouldn't it be 
reasonable for any budget matter information requested by a 
Commissioner when they are voting on the budget for that 
Commissioner to be able to get it, which apparently he or she 
can't?
    Mr. Jaczko. Actually, that is not true. This year, last 
year's budget there was, I think, a misunderstanding on my part 
about how information was provided, when the budget was 
transmitted. So actually this year with the budget submittal, I 
provided all previous drafts, versions, documents related to 
the development of the budget. That was actually provided to 
each Commission office when they received the budget to begin 
their deliberations.
    Senator Vitter. So what was the instance when they asked 
you for budget information, and it wasn't provided?
    Mr. Jaczko. I don't recall what the instance was. But they 
are provided all information about the budget. The budget 
itself is a large document.
    Senator Vitter. And any request they make about budget 
issues, that request will be honored timely in terms of 
information?
    Mr. Jaczko. Yes, again, the issue there is really more 
about timing. I think there has been a tradition to, you know, 
budget development is, as we say, a sausage making process. So 
there has, I think, been a tradition to give the Chairman an 
opportunity to kind of do some of the sausage making, and then 
present that ultimately to the Commission.
    Senator Vitter. Could I ask the other Commissioners to 
chime in about issues they think still exist here, if any? 
Anyone.
    Mr. Jaczko. Senator, if I could say, I think this was----
    Senator Vitter. I would like to move on.
    Mr. Jaczko. Sure.
    Senator Vitter. First of all, if they are not getting 
information timely, I think that is in many cases the same 
thing as not getting information. Time is of the essence.
    Mr. Ostendorff, were you going to say something?
    Senator Boxer. We will have time in the next round.
    Senator Carper.
    Senator Carper. Just a quick question for Dr. Apostolakis 
and Commissioner Ostendorff. It is my understanding that the 
NRC staff also recommended that the Commission quickly act on 
the implementation of spent fuel instrumentation. I believe 
that these actions would ensure that we can monitor water 
levels in the spent fuel pools at our reactors, which was an 
issue during the Fukushima crisis.
    For some reason, that recommendation was not included in 
the recent actions approved by the Commission. Could you both 
just very quickly explain why? Very quickly.
    Mr. Apostolakis. It was not included in the ones that were 
supposed to be acted upon without delay, I believe.
    Mr. Jaczko. Subsequently, it was.
    Mr. Apostolakis. Subsequently, it was, yes, that was, I am 
a bit confused. It is included.
    Senator Carper. Is it? And Commissioner Ostendorff, is that 
your understanding?
    Mr. Ostendorff. Senator, I was looking at the SECY 110137, 
which has the prioritization of the Fukushima Task Force 
actions. It has a Tier 1, 2, and 3 approach. The staff, upon 
their review by the steering committee, did add spent fuel pool 
instrumentation to that list. And that has been approved by the 
Commission.
    Senator Carper. Good. Thanks very much for that 
clarification.
    Mr. Apostolakis. May I make a comment, Senator?
    Senator Carper. Yes, very briefly, please.
    Mr. Apostolakis. This is a good example of how competent 
people have different views. I was talking over dinner actually 
with some members of the Advisory Committee on Reactor 
Safeguards. And they said, why do you want to do that? It 
doesn't improve safety. Now, receiving information of course is 
always a good thing. But again, if we think in terms of the 
constraints, in terms of resources and so on, as the Chairman 
mentioned earlier, they didn't feel that this was of paramount 
importance and had to be done without delay. Eventually, we 
said yes, do it.
    But I think it is an example of how competent people can 
have different views. I was very surprised when they told me 
that.
    Senator Carper. OK, thanks very much.
    May I ask a question of the Chairman, let me ask 
Commissioner Svinicki and then Commissioner Magwood, please. 
With the work on Fukushima reported and the reported discord 
between our Commissioners, has the day to day staff work been 
compromised?
    Ms. Svinicki. I am not aware of a compromise of the staff's 
efforts.
    Senator Carper. Thank you.
    Mr. Magwood, please.
    Mr. Magwood. Not that I am aware of.
    Senator Carper. All right.
    And let me just ask of the Chairman, where is the 
Commission on the licensing process of potentially new reactors 
and the relicensing process of current reactors, please?
    Mr. Jaczko. Well, the, for new reactor licensing, that is 
under deliberation by the Commission, we have a final decision 
on the AP1000 design currently in front of the Commission, and 
then we also have in front of the Commission possible actions 
on licenses for Vogtle and for the Summer sites. License 
renewal is continuing apace. We have a number of hearings 
ongoing for license renewal cases which are either in front of 
the Commission or in front of our licensing boards, and then 
the routine staff actions with regard to license renewals is 
ongoing.
    In the interest of candor, this may be an area in which, if 
we have resource constraints as a result of the Fukushima 
activities, we may look at license renewal as an area to pool 
resources. If that were to be the case, I don't anticipate it 
would have a real impact on any of the license renewals, 
because many of them come well in advance of the time that they 
need their actual approvals, if they were to be granted.
    Senator Carper. Do any of the other Commissioners want to 
add to what the Chairman has just said in this last question? 
Anybody.
    OK. And the other thing I would say, I want to go back to 
actually comments of Senator Alexander. He used to be a 
Governor, Senator Alexander was also an aide a long time ago, 
to Senator Baker, Howard Baker. Not everybody knows that. He 
was president of the University of Tennessee, chairman of the 
National Governors Association. And he and I said almost the 
same thing, there have been times when we have offended people. 
Sometimes we didn't know it, and in some cases we did. What he 
and I have done for years, in all the roles we played, as we 
have literally personally gone to the person who was offended 
and said, if I have done something to offend you, I apologize. 
Literally. In some cases I wasn't sure I should apologize, but 
I have done that routinely. And the door has always been open 
to let me in.
    And I just want to say to the other Commissioners, when 
this man calls you and says, I would like to come and sit in 
your office and to talk with you, close your door and just have 
a good heart to heart, have the door open, have a good 
discussion, and give him a shot. And I would say, Mr. Chairman, 
when they do, make the most of it. Thank you.
    Mr. Jaczko. Thank you.
    Senator Boxer. Thank you very much, Senator.
    Senator Inhofe would be next, and help me out here, is it 
Senator Sessions next?
    Thank you, sir. Go ahead.
    Senator Sessions. I would like to pursue the report issue, 
and the issue of the Chairman's--the allegation that the 
Chairman feels it is appropriate to be a gatekeeper with regard 
to information that gets to the other members of the board. 
Because I think that is pretty important with regard to the 
integrity of everything that you do, I believe as board members 
you have a right to insist on that.
    When asked about that yesterday by Chairman Issa, Mr. 
Jaczko, this was the question: ``Is it true that any 
information that you have has ever been withheld on your 
request?''' And he replied, ``Not that I am aware of. I work 
every day to ensure that the Commission has the information it 
needs.''
    I guess I would ask Mr. Ostendorff, don't you think that 
the Commission, that the Chairman is not entitled to decide the 
information that you need, that you are entitled to have the 
information that the Commission and its staff has?
    Mr. Ostendorff. Senator Sessions, I think it is, in order 
for us to fulfill our responsibilities on voting on matters 
that come before us, we need to have the full information and 
the full views, uninfluenced by the senior staff--the senior 
staff, as uninfluenced by any other office. And we provided a 
few examples of those, and I know it has been a concern of 
ours. And that was a key factor that led to us writing this 
letter, when we do not believe that our senior staff, and I 
have talked to a bunch of them, and I think my other colleagues 
have as well, they do not feel they can always present their 
views that might be different from those of the Chairman.
    Senator Sessions. So when you ask for a staff report and 
evaluation about an issue, you weigh their recommendation very 
seriously, as you make your decision?
    Mr. Ostendorff. Yes, sir, as I said in my opening statement 
today, I think the prioritization efforts from Fukushima are 
perhaps one of the key efforts that manifest the need to hear 
from staff. In my view, not all the safety recommendations made 
by the Fukushima Task Force had equal safety significance. Some 
were really, really important. The station blackout example I 
mentioned earlier is really important to do quickly. And I 
think the value--and I think Commissioner Apostolakis alluded 
to this--the value of hearing from staff their unfiltered, 
uninfluenced recommendations was, where can we get the biggest 
bang for the buck in the shortest period of time with respect 
to safety enhancements.
    Senator Sessions. The report that you got on that, and the 
information from staff, was it unfiltered or filtered, in your 
opinion?
    Mr. Ostendorff. We had concerns.
    Senator Sessions. You had a concern about it?
    Mr. Ostendorff. We had concerns with respect to the draw of 
the SECY paper back in July, that forwarded the Near-Term Task 
Force report that appeared, that did remove from the Commission 
recommendations from the staff as to how to go about moving 
forward with external stakeholder engagement and 
prioritization.
    Senator Sessions. Mr. Apostolakis, do you agree that you 
have concerns in that area, that the staff reports are not 
getting to you unfiltered on occasion?
    Mr. Apostolakis. I do, because there have been occasions 
where the staff comes indirectly and says, what is in the 
report is not what we think. And that doesn't happen every day, 
I don't want to give you the impression that this is a 
widespread thing. But in some instances, it has happened. And 
that is certainly not a healthy situation, it seems to me.
    Senator Sessions. Commissioner Svinicki, do you share the 
same concern?
    Ms. Svinicki. Yes. I rely upon the staff providing their 
independent recommendations, and I have had concerns that I 
have not had their views in an unvarnished form.
    Senator Sessions. And Commissioner Magwood.
    Mr. Magwood. Yes, I think the experiences my colleagues 
have talked about, I have seen the same thing, either staff 
telling us after the fact that papers didn't represent their 
views, or that there was a paper they would like to present but 
they can't get it to us. We have had those conversations many 
times.
    Senator Sessions. Are any of you aware of the incident in 
the Issa report where it alleges that the Chairman became 
shaking angry and accused the deputy executive director of 
operations of being less than honest when a vote paper already 
significantly altered to conform to the Chairman's vision did 
not conform to his desires, interests, or views? Do you know 
what incident that might be referring to?
    Are you familiar with another incident cited from the Issa 
review that the Chairman used his supervising authority--time 
is up, you are right.
    Senator Boxer. We will have another round. We will stay 
here as long as we can.
    OK, we are going to move to Senator Lautenberg.
    Senator Lautenberg. Thank you, Madam Chairman.
    Is there a difference among the Commissioners in how 
quickly the Task Force should implement Task Force 
recommendations? Anybody able to answer that? What kind of a 
timeframe? What kind of rush gets put on these things?
    Mr. Magwood. I will take the first shot at that, Senator. I 
think that, from conversations I have had, I think we are 
pretty much on the same wave length. I think our understanding 
is pretty common. We want to move forward as aggressively as 
practical. And I think we have been moving through the issues 
as quickly as we can.
    Senator Lautenberg. As quickly as we can, OK, thank you.
    Do you want to volunteer?
    Ms. Svinicki. I agree with Commissioner Magwood, Senator.
    Mr. Apostolakis. Yes, and I do believe that the goal of 
completing everything in 5 years is a good one.
    Mr. Ostendorff. Senator, if I may also respond, I know 
Chairman Jaczko at a prior Committee hearing has been public 
about a 5-year goal. I think all five of us agree that that is 
an appropriate goal, and I think we support that. I would like 
to note that SECY paper 110137, dated the 3rd of October, 2011, 
is a 51-page paper provided to the Commission by Bill 
Borchardt, our Executive Director for Operations, and it has a 
fairly detailed plan. It doesn't have exact every single date 
in there. But it has a plan to move forward in a number of 
different areas, I think, to do this in a very responsible, 
responsive time period.
    Senator Lautenberg. Why is it felt that the Commissioners 
wanted to delay the Task Force report on Fukushima? I want to 
ask you this question. We have heard about the scoldings that 
took place, and that is not nice. I ran a company that now has 
45,000 employees, and I was CEO. Sometimes, I'll be darned if I 
didn't lose my head and scold somebody. But I had the job for a 
long time.
    So I would ask you, and I will go in order, sir, with you, 
is Chairman Jaczko unfit or incompetent to serve in his 
capacity?
    Mr. Ostendorff. Senator Lautenberg, I would say that my 
experience with Chairman Jaczko is that he is an 
extraordinarily bright, competent individual. I have never 
questioned his commitment to the mission of the NRC nor to 
nuclear safety. That said, I have had significant reservations 
with how he conducts himself, with his colleagues, with NRC 
staff. He and I have had some frank discussions in these areas. 
There have been some real concerns.
    Senator Lautenberg. Mr. Magwood.
    Mr. Magwood. I don't think I can add to that. I agree with 
Commissioner Ostendorff's comment.
    Senator Lautenberg. Restate it for me, please.
    Mr. Magwood. Well, I think that I actually admire the 
Chairman's grasp of regulatory policy and technical issues. We 
have had conversations over the last year and a half which I 
think have demonstrated that. Again, however, as Commissioner 
Ostendorff mentioned, there are other issues, which I think 
have quite frankly overwhelmed those positive attributes and 
created a lot of problems for us.
    Senator Lautenberg. That is pretty heavy hollering to say 
it overwhelms. You both admire his skills and his knowledge.
    And Ms. Svinicki, do you think he is competent, that 
Chairman Jaczko is competent?
    Ms. Svinicki. I joined in the letter to the White House 
because I shared the significant concerns of my colleagues. But 
these decisions ultimately rest in the hands of others, and I 
leave them to judge whether these events----
    Senator Lautenberg. So you have no opinion about it.
    Mr. Apostolakis.
    Mr. Apostolakis. As I said yesterday, yes, he can do a 
great job. There are two things he has to correct: control his 
temper and do not impede the flow of information to the 
Commissioners, which he doesn't do all the time. But sometimes 
it happens.
    Senator Lautenberg. Thank you.
    Madam Chairman, everybody kind of thinks that Chairman 
Jaczko is competent, and that he has to be careful about 
hollering at people, as I understand it. With this job, it 
seems like a pretty sketchy kind of appraisal.
    Senator Boxer. I am sorry to interrupt you, but I am going 
to be fair here, and we are going to move to Senator Barrasso.
    Senator Barrasso. Thank you, Madam Chairman.
    Mr. Chairman, the House Ranking Member yesterday on the 
Oversight and Government Reform Committee warned that internal 
disagreements among the Commissioners should not become what 
you described as a weapon of mass distraction from the issue of 
focusing on nuclear safety. And I want to focus on nuclear 
safety as do people on both sides of the aisle here.
    So when employees--Commissioners within an agency are 
expected to execute the mission of protecting the public from 
nuclear disasters, is investigating allegations of hostile work 
environment, outbursts of abusive rage, threats to the 
viability of the Commission's structure, it is just a weapon of 
mass distraction that we should ignore and move on, or is this 
something you think we should actually investigate?
    Mr. Jaczko. Well, I always welcome congressional oversight, 
and I think it is healthy for us as an organization to have 
that. I welcome these issues, if there are challenges, and I 
want to address them. I have said that repeatedly. As I said, I 
have indicated I think it would be a good opportunity to sit 
down with my colleagues and talk about some of these issues. 
That is actually something I proposed about a year ago with my 
colleagues, that we have a meeting, we sit down, we work 
through some of these issues. And there was not an interest on 
all of my colleagues to want to do that. But I continue and am 
committed to having a better dialogue and to understanding 
where I am exercising my authorities in a way that is leaving 
them to feel like they are not getting full access to 
information. Because I do feel like I am working to provide 
that.
    And you know, I would just say thought that there is a 
tremendous amount of information that comes to Commission 
offices. There is a tremendous amount of information within the 
agency as a whole. And in fact, our Commission procedures do 
specifically state that when there are resources challenges and 
when there are multiple requests for information from 
Commission offices, that has to be balanced somewhere within 
the resource needs of the agency. And that is ultimately the 
responsibility of the Chairman.
    Senator Barrasso. Let me just reclaim my time.
    Commissioner Magwood, at yesterday's hearing you spoke of 
misleading reports and a smear campaign against the four 
Commissioners who wrote to the White House expressing concerns 
about the hostile work environment. You stated that you do not 
intend this tactic to succeed. Are there things you would like 
to respond to in terms of any attacks, any that you would like 
to respond to today?
    Mr. Magwood. Well, I appreciate that. It was rather 
disturbing to see some of these reports in the media, focusing 
on my background. As I think I mentioned to Senator Sanders' 
comment, my background is one that focused largely on research 
and development. I don't see myself as a voice or 
representative of the industry by any stretch. As a matter of 
fact, a lot of people in the industry have never really been 
happy with me, because they see me as an internationalist and 
someone who is much more focused on the vast technology than 
day to day problems.
    I did do some--I did have a consulting business after I 
left DOE. I did two rather small reports for TEPCO on policy 
level issues that have nothing to do with the work of the NRC. 
One was on--actually, I take that back, one was actually on 
emergency planning. So these aren't things that influence me 
today, they aren't things I think about. I don't have any 
relationships with people in the industry which I consider to 
be inappropriate. So I just found these allegations in the 
press to be really irresponsible. The larger allegations 
against my colleagues that we are somehow under the control of 
the industry I just thought was completely outrageous.
    Senator Barrasso. I appreciate it. Thank you for your 
clarification.
    Commissioner Ostendorff, your testimony during the House 
hearing stated that the White House Chief of Staff Daley has 
mischaracterized the situation. Can you just elaborate further 
on what you mean?
    Mr. Ostendorff. Yes, sir. I said that intentionally 
yesterday, because I was very concerned at the letter we 
received Monday night. I in great candor would tell this 
Committee, and I think it is obvious to everybody, this is an 
unprecedented action the four of us took. This is not something 
we just decided on the spur of the moment one afternoon to say, 
let's go do this. This was the culmination of many months where 
we have been frustrated, we have seen things that are happening 
that are wrong. We have an obligation to the American people to 
stand up and be counted. That is what we did.
    I feel like Mr. Daley's response to us, with all due 
respect to his position as White House Chief of Staff, it is 
not about lack of communication among the Commissioners, it is 
not about internal disagreements, it is about, from my 
standpoint, it is more about doing damage to the agency, and it 
is about me as a Commissioner and my other colleagues who 
signed the letter receiving direct reports from senior career 
executives about the hostile environment at the NRC.
    Senator Barrasso. Thank you, Mr. Ostendorff.
    Thank you, Madam Chairman.
    Senator Boxer. Thank you.
    Mr. Magwood, you said it was disturbing to see reports in 
the media about yourself. Do you think it was disturbing to the 
Chairman to see what you said about him in terms of his 
relationships with staff? Do you think it was disturbing to 
him?
    Mr. Magwood. I am sure it was.
    Senator Boxer. OK. Well, let's say it was disturbing to 
you, it was disturbing to him.
    Now, Senator Vitter opened up the issue of treatment of 
women. So I am going to take that up, because what is said here 
reminds me of the days--oh gosh, am I dating myself, of Joe 
McCarthy. I have in my pocket a list of three people who said 
this, and they are anti-American. I know of one incident, and I 
know of three.
    Well, let me tell you, that is outrageous character 
assassination. And so what we did is we went over and we talked 
to several women to find out, anecdotally, if what you are 
saying is universally true. So one respected woman said, female 
staffer, that the Chairman is the most fair person, those are 
her words, the most fair person she had ever met. She went on 
to say, ``He treats everyone equally.'' Another said, ``He 
invites people to dissent, and I have never seen him mistreat 
others.'' One woman said, ``What I am floored by is the conduct 
of the other Commissioners.''
    So let's put this thing to bed here. I have to be honest 
with everybody, there are times when I am intense when I talk 
to my staff. Please, I hope they understand. I get intense. I 
care, I challenge. So let's not be holier than thou. Because 
that is something that is hard for people to take.
    Now, Senator Barrasso proved that there is a witch hunt 
going on against the Chairman. Why do I say that? Because he 
puts into the record the reports from yesterday's hearing, 
which was a witch hunt. And then he quotes from the reports of 
the witch hunt. And he puts them in the record. And that is 
what it was.
    You know, Mr. Chairman, when you are in public life, any 
one of us could tell you that anyone can say anything about 
you, and Mr. Magwood, he is finding that out, too. So I am 
sorry, I am really sorry about this. And I think what it is 
about is something entirely different. I think it is about how 
fast we are going to move on safety at our nuclear power 
plants.
    There are a lot of people that don't want to move 
expeditiously. That is not a fact unknown. All you have to do 
is look at what happened after 9/11. It took 10 years. And 
without the Chairman's leadership, when he was sitting on the 
Commission then, moving forward, we never would have gotten it 
done. And it is life and death stuff.
    And who is on the side of the staff? I will tell you who is 
on the side of the staff. It is my understanding that in 
September, with Chairman Jaczko's leadership, the senior NRC 
staff endorsed action without delay. In a statement they said 
the staff believes that all the Task Force's recommendations, 
if adopted, would enhance safety, and the staff agrees with 
moving forward with each of these recommendations.
    Now, the Commission is slow walking the staff and then 
blaming the Chairman for changing the recommendations. These 
people have 135 years of experience. And I have to say, Mr. 
Magwood, when we last saw each other, it wasn't the most 
pleasant. I am sorry if it is not so pleasant. I asked you the 
following question on June 16th: Will you assure me that the 
Task Force report containing the recommendations is delivered 
to my office and Senator Inhofe's office on the day it is 
delivered to the Commission. We asked everybody. You said yes.
    I have an e-mail from July 5th I will place in the record, 
without objection, that shows your chief of staff suggested you 
had ``wiggle room'' in whether to meet this commitment, and 
asked if she could contact other offices. And you wrote back, 
it is appropriate to discuss this with other chiefs of staff to 
see what they are thinking.
    I don't know why you felt you needed wiggle room from 
turning over a report to the Ranking Member and myself. I mean, 
there are other examples of this which I will put in the 
record.
    [The referenced information is unavailable for public 
review.]
    Senator Boxer. So I think this is all about safety, all 
dressed up as something else. And I have to tell you, if I go 
back to my State's areas where they have nuclear power, they 
have old plants there, millions of people live nearby, they 
wouldn't be happy if a Chairman was strong or maybe a little 
bit intense with a staff member. But they want the Chairman and 
every one of you to make their nuclear power plants safe.
    And with that, I will call on Senator Vitter.
    Senator Vitter. Thank you, Madam Chair.
    Commissioner Ostendorff, I want to get back to one 
important instance in terms of the flow of information. I 
understand that in the Vogtle matter, the staff recommendation 
was different than you expected. Why was that, and did the 
direct of the New Reactors program explain the change?
    Mr. Ostendorff. Senator, on August 10th, I had a routine 
periodic with Mike Johnson, who is the Office Director for the 
New Reactor Office, which has about 500, 600 people in there. 
Maybe it is about 500 people. And he and I, he had discussed 
this upcoming paper that we were going to be receiving in about 
2 weeks with respect to this timing of the license 
effectiveness. And he told me that he recommended that the 
effectiveness be concurrent with the date the NRC sent the 
Federal Register notice to the Office of Management and Budget. 
And we discussed it at great length, that there was no public 
safety, nuclear safety issue at all. I had a briefing with 
another Commissioner on this topic.
    So I was surprised when August 25th, 15 days later, comes 
around and the recommendation in that paper was not what I 
thought it was going to be, but it was rather to keep the 
status quo. This is the same paper that Commissioner 
Apostolakis referred to. We were surprised. What I heard was 
there was an interchange between the Chairman and Mike Johnson 
about this issue and that at the Chairman's request, the 
recommendation was changed.
    Senator Vitter. Mr. Apostolakis, could you comment briefly 
on the incident as well?
    Mr. Apostolakis. Commissioner Ostendorff just gave you more 
details than I am aware of. But I was informed that what we 
received was not the staff's original recommendation.
    Senator Vitter. OK. Mr. Chairman, in your letter to Mr. 
Daley, it is 16 paragraphs long, and the second to last 
paragraph you used the word apologize once. But I read it about 
10 times, and I am still unclear what you apologized for. What 
did you apologize for?
    Mr. Jaczko. Well, I am deeply disappointed that the, some 
of these internal concerns are being made public. I take great 
pride in my job as Chairman. And part of that job is ensuring 
that my colleagues fully trust and are willing to work with me. 
Clearly, I have some work to do in that area, and I am 
committed to improving that situation.
    A lot has been made of this particular paper. And I think 
to put it in perspective----
    Senator Vitter. Can I go back to the apology again?
    Mr. Jaczko. Please.
    Senator Vitter. The letter says something like you 
apologize for this being a distraction. That strikes me in 
politics as a classic non-apology apology. What are you 
apologizing for? I think it is important to be clear.
    Mr. Jaczko. Well, I am very sorry if this is distracting us 
from nuclear safety. That is our fundamental job. And any----
    Senator Vitter. Besides apologizing for the distraction, do 
you plan on apologizing to anyone any time soon about anything 
else?
    Mr. Jaczko. I absolutely intend to talk to my colleagues, 
either individually or as a group, understand their concerns, 
and based on that discussion I intend to do whatever is 
appropriate to remedy the situation.
    Senator Vitter. OK. A while ago when Senator Inhofe was 
asking questions, he asked, do you agree with the bottom line 
of the Markey report. And I believe your answer was yes, based 
on e-mails you have seen from your fellow Commissioners. That 
is a pretty bold answer, so I just want to make sure----
    Mr. Jaczko. I am sorry, that was not my answer, Senator.
    Senator Vitter. OK. Well, do you agree with the bottom line 
of the Markey report, which I would characterize as follows, 
that all of this hubbub from your Commissioners is really a 
coup attempt, and it is all about slow walking safety?
    Mr. Jaczko. Senator, I am not going to comment on any 
Congressman's conclusions or recommendations.
    Senator Vitter. My question is about what you think. Do you 
agree with that characterization?
    Mr. Jaczko. I was very disappointed to see the content of 
many of those e-mails. Those were clearly conversations that 
were going on without my office's knowledge. I don't think that 
is in the spirit of the openness in which we pride ourselves as 
a Commission. And I think it is clearly indicative of a need 
for better communication among Commissioners.
    So I was very disappointed when I saw a lot of those e-
mails.
    Senator Vitter. Well, unless you want to clarify, I will 
take that as a yes, then. I find that pretty staggering.
    Do you think any or all of your four other Commissioners 
hold nuclear safety in a lower priority than you do?
    Mr. Jaczko. No, I think we all have----
    Senator Boxer. You will have to wrap it up.
    Mr. Jaczko. I believe we all have different interpretations 
of what safety means. That is why we have a Commission.
    Senator Boxer. I will have to ask you to stop it at that 
point.
    Senator Sanders.
    Senator Sanders. This has been a very interesting hearing. 
I think there are two issues. No. 1, obviously the issue that 
is of concern to the people of the United States of America is 
that we make sure that our nuclear plants are as safe as they 
possibly can be. There is a lot of concern, especially since 
Fukushima, about the safety of nuclear power in this country. 
And I suspect that what we have here among five intelligent 
people, all of whom I am absolutely convinced are concerned 
about nuclear safety, is perhaps a difference of opinion as to 
how aggressively and rapidly one moves forward. And I suspect 
there are differences of opinion and now in some cases are 
being cloaked as personality differences or personal attacks 
against the Chairman.
    So I would say for a start, Madam Chair, my suspicion is, 
looking at some of the votes that have been cast, there are 
differences of opinion among intelligent people.
    But the second issue that does concern me is some of the 
personal attacks that have been made against Mr. Jaczko. He has 
been asked to respond to charges of which he is not aware. As I 
understand it, Mr. Jaczko, there is a charge that you have 
intimidated, brought to tears some of your employees. You have 
indicated to this Committee, I gather, that you are not aware 
of that, is that correct?
    Mr. Jaczko. That is correct. I learned of it within several 
days or a week.
    Senator Sanders. And you have been charged with having a 
temper. So let me just ask my fellow Commissioners, again, Mr. 
Jaczko is being forced to respond to something he is not aware 
of. But just out of curiosity, Mr. Magwood, have you ever lost 
your temper before other people that you work with?
    Mr. Magwood. No.
    Senator Sanders. Wow. That is interesting.
    Ms. Svinicki.
    Ms. Svinicki. I tend to get quieter if I get upset, as 
opposed to getting loud. Some people are like that.
    Senator Sanders. Mr. Apostolakis, any chance that you may 
have upset somebody in the course of your discussions?
    Mr. Apostolakis. Yes.
    [Laughter.]
    Senator Sanders. Mr. Ostendorff, any chance?
    Mr. Ostendorff. I remember one significant incident, when I 
was in command of a submarine, and I recognized that and 
immediately apologized in front of the entire people that 
witnessed it.
    Senator Sanders. And maybe I should ask my member, my co-
members of the Senate, who in their long careers I am sure 
never, under any instance, I see Jeff Sessions shake his head, 
ever said anything that they were feeling badly about to any of 
their staff members. The answer is, I have no idea what kind of 
workplace Mr. Jaczko has and what goes on at the NRC, that 
somebody who is aggressive, who is trying to do a job, may have 
in some ways hurt the feelings of other people. I suspect it is 
possible. I suspect that in all of our lives, unlike Mr. 
Magwood, I have lost my temper. And I suspect I have 
inadvertently hurt people's feelings.
    So I would say that I think the issue that we have to focus 
on is that everybody on your NRC, everybody up here has to do 
everything that we can to make certain that the people of the 
United States of America understand that nuclear power in this 
country is as safe as it possibly can be. And with that, Madam 
Chair, that is about all that I have to say.
    Senator Boxer. Thank you very much, Senator.
    Senator Sessions.
    Senator Sessions. Thank you.
    Well, I just don't believe that our problem here is policy 
difference. Our Chairman said she thought this was about moving 
expeditiously and about safety and that the four Commissioners 
didn't agree with that as a matter of policy, and that this 
explains your criticism of the Chairman in your letter to the 
President.
    Let me ask each of you, Mr. Magwood, is that the reason for 
your writing the letter, that you disagreed about moving 
expeditiously to ensure safety?
    Mr. Magwood. No. Not at all. As a matter of act, the 
Commission has taken an initial action on all the Task Force 
recommendations except for one, the first one, at this point, 
and actually has added to the agenda beyond what the Task Force 
has contemplated. So I feel that we have moved forward very 
aggressively and very comprehensively.
    Senator Sessions. Ms. Svinicki, do you agree that this is a 
complaint you have made only about moving faster for safety?
    Ms. Svinicki. No, I don't agree with that characterization.
    Senator Sessions. Mr. Apostolakis.
    Mr. Apostolakis. No. The letter has nothing to do with 
Fukushima.
    Senator Sessions. Mr. Ostendorff.
    Mr. Ostendorff. I agree with my colleagues. This is nothing 
to do about moving forward on Fukushima.
    Senator Sessions. I think I didn't get to complete my 
question about the Issa report interviewed staff, and it was 
reported that the Chairman used his supervisory authority to 
berate and compel staff to withdraw a voting paper that 
included a suggestion that was contrary to his preferred course 
of action.
    You have talked about that in general, Mr. Ostendorff. Are 
you aware of that concern?
    Mr. Ostendorff. Senator, this dealt with this, this was 
referenced in our letter to the White House, the withdrawal of 
the original staff-recommended 5 pages on SECY paper 110093, 
which had detailed recommendations, presented quite frankly, by 
Mr. Borchardt and his deputy, Marty Rigilio, as to how to move 
forward with Fukushima recommendations. That paper was 
withdrawn and replaced by a cover sheet.
    Senator Sessions. And that denied you and the Commission 
members important information as you were seeking to make a 
decision?
    Mr. Ostendorff. I would say that----
    Senator Sessions. Or could have had that effect if you 
hadn't otherwise----
    Mr. Ostendorff. I am sorry, excuse me, sir?
    Senator Sessions. It could have had that effect?
    Mr. Ostendorff. Yes, it could have.
    Senator Sessions. One of the allegations is that the 
Chairman used his, introduced political considerations as part 
of his discussions with Democratic appointees.
    Are you aware of, Mr. Magwood, of any instance in which you 
were urged, for political loyalty or other reasons, to vote one 
way or another on an issue?
    Mr. Magwood. I think I would like to not answer that 
question right now, Senator. I would like to perhaps get back 
to you for the record.
    Senator Sessions. Fair enough.
    And Mr. Apostolakis.
    Mr. Apostolakis. A long time ago, once, there was a hint 
that I should act in a certain way.
    Senator Sessions. Well, and Madam Chairman, I will ask 
about the incidence of abuse of women.
    Mr. Magwood, your chief of staff, Patrice Bubar, stated, 
``Sometimes the tactics of the Chairman used are threatening 
and intimidating.'' I understand that Ms. Bubar is a recipient 
of the President's Meritorious Rank Award and Distinguished 
Career Service Award. Do you have any reason to question her 
comments about her dealings with the Chairman?
    Mr. Magwood. No, I don't. But I also don't think that she 
has had any personal experience in that direction.
    Senator Sessions. Madam Chairman, thank you for allowing 
this full hearing, and we have had some disagreements. I would 
urge the majority, Madam Chairman, to understand that I believe 
this does--is divorced from policy differences. I think it 
really is a matter of the lawful operation of a Commission 
which has to depend on the reports and advice they get, and be 
able to be sure of the judgment of the Chairman in declaring an 
emergency in which he then becomes the sole authority of the 
Commission. It is very real, and I thank the Chair.
    Senator Boxer. Well, I just want to say before my good 
friend leaves, and he is my good friend, that the Chairman 
checked with the General Counsel immediately before taking on 
any of his powers. And within 6, 7 days of Fukushima, and I 
will put it in the record, without objection, he got a letter 
back explaining exactly what he was permitted to do. So I 
really think a lot of this is non--that is why I think this is 
really about culture at an agency, the safety issues.
    Here is another, this is really interesting, I think you 
will find it fascinating. At the same time these Commissioners 
were exchanging e-mails and doing all that they did and 
plotting their letter or whatever they did to send to the White 
House, against the Chairman, there was a confidential survey of 
all the employees in every Federal agency. This is what 
happened. This is supposed to be a man without leadership? This 
is supposed to be man who is cruel to his staff? Listen to what 
happened.
    On the issue of effective leadership, the NRC was rated 1 
out of the 30 agencies. On the issue of fairness, 1 out of the 
30 agencies. The issue of fairness of supervisors, 1 out of 30. 
On the issue of family friendly culture, and benefits, 1 out of 
30. While colleagues on the other side make it sound like you 
don't really care about people's feelings, your agency came out 
on top. Work-life balance, 1 out of 30.
    So why is it that I think this is really, well, a diversion 
is a nice way to put it, it is the way the Chairman put it. I 
think it is a subterfuge for something else. And Mr. Magwood, I 
have to tell you, it is very disturbing to me, you did have 
opposition from 100 groups of enviros. I wound up voting for 
you because you came before us and you said, I firmly believe 
that maintaining uncompromisingly high levels of safety is the 
first and most important job of any organization that handles 
nuclear material. That is what you said. And you had every 
single big player in industry support you. So don't say that 
you didn't, because I have the list. And I will put them in the 
record, because they are all in the Nuclear Energy Institute.
    [The referenced information follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
        
    Senator Boxer. But let me just say this. Why I am so 
troubled, I sent the NRC a letter emphasizing ``the importance 
of transparency'' and urging the NRC to act promptly--those are 
my words--to implement the Task Force recommendations. That was 
a letter I sent to all of you. By the way, you haven't done it, 
and it is a nightmare for me to think that this is going to 
take 10 years, just like the other Commission took. And that is 
a disaster, but we will talk more about that.
    But I have a document showing that 1 day after I sent this 
letter, your chief of staff--your chief of staff--wrote to you 
saying ``Attached is a letter from Boxer on the Task Force 
Report. I don't know if Inhofe plans on sending a counter-
letter.'' And then you replied, ``It would be nice if someone 
did.''
    Why do you need a counter-letter to a straightforward 
letter that says, will you be transparent and will you act 
promptly? Why did you feel the need to want a counter-letter to 
my very open letter?
    Mr. Magwood. To be honest, I actually don't remember that 
exchange. But let me say that there was never, in my view, 
there was never any possibility or any question that we were 
going to release a Task Force report very quickly. As I 
mentioned earlier, it was really a conversation about whether 
to release it immediately or wait a couple of days to give the 
Commission a chance to read the report.
    Senator Boxer. OK, well, wait a minute. I am going to send 
this over to you, it is your e-mail. Would you send this over 
to Mr. Magwood?
    That is not right. If you come before us to get our votes, 
and I have to stand up to 100 environmental groups that 
frankly, I respect, and say, you know what, he convinced me. 
And then you have to get a counter-letter from my good friend, 
an adversary on certain issues, Senator Inhofe, when all I am 
asking for is transparency and quick action, it is extremely 
disturbing. So that is why I say, this isn't a court of law. I 
think we proved, I believe--now, of course I bring to bear a 
certain prejudice about my own arguments and that of Senators 
Sanders, Lautenberg, and the others. I admit it.
    But I think we proved today that this can't possibly be 
about what you four say, because your own staff rates this 
agency high in leadership and family friendliness. So it is not 
about that. It is not about grabbing power, because your 
General Counsel told you exactly what to do. And the IG, 
although there was lots in the report that was disturbing, it 
was mostly the charges, his findings never found that you did 
anything improper.
    And you yourself have said if it is a matter of my style, I 
am willing to change it.
    So let's move on from here, and I am happy to call on 
Senator Barrasso.
    Senator Barrasso. Thank you, Madam Chairman.
    Mr. Chairman, do you think that these other Commissioners 
who are with you have a lower commitment to safety than you do?
    Mr. Jaczko. I think I--I have worked on the Commission for 
a long time, and I think all Commissioners come with different 
ideas of what safety is. It really gets to a question of, in 
effect, how safe is safe enough. And I think my voting record 
shows that I tend to be more--I don't know what the right word 
is here, perhaps conservative--when it comes to safety 
decisions in the sense that I am willing to perhaps require 
more of licensees than my colleagues are, or that varies by 
issue to issue. So it is hard to say that generically there is 
a kind of a way to categorize it.
    But in some cases I do tend to take positions that I think 
are more restrictive on licensees, is probably the best way I 
put it.
    Senator Barrasso. Because I am looking at the letter that 
you sent 8 days ago to Bill Daley, White House Chief of Staff. 
It says, unfortunately, you say, all too often when faced with 
tough policy calls, a majority of this current Commission, 
these four people, has taken an approach that is not as 
protective of public health and safety as I believe is 
necessary. So that says to me that you truly don't believe that 
they have the same commitment to public safety as you do, at 
least as I read your words right here.
    Mr. Jaczko. Senator, I think that really is a reflection of 
our voting records. We have disagreements on policy, and I 
don't have a problem with those differences on policy. But I 
think if you look at our voting records, there are some 
differences in our take on the approach to safety and what is 
appropriate for safety.
    Senator Barrasso. To the other four Commissioners, given 
everything that has happened, given your repeated attempts to 
solve the problem internally, I guess I have to ask, do you 
have the confidence that the Chairman's behavior is going to 
change? And I have a couple of minutes left, is there anything 
else that any of the four of you who signed this letter would 
like to add? Why don't we start with Mr. Magwood and work our 
way down.
    Mr. Magwood. I don't think I have anything further to add. 
I am skeptical that change will occur. One can always hope, but 
skepticism is quite high.
    Senator Barrasso. Ms. Svinicki.
    Ms. Svinicki. I don't have anything additional to add. I 
would just add as a personal matter, it is not in my nature to 
completely give up on people. I just don't approach 
relationships that way.
    Senator Barrasso. Mr. Apostolakis.
    Mr. Apostolakis. I am hoping he will.
    Mr. Ostendorff. This is an extraordinarily difficult issue. 
And I know that the four of us have done what we think is 
right, that we have had grave concerns and felt an obligation, 
because of damage we saw being done at the agency. I take the 
Chairman at his word, what he said today, that if he is 
committed to changing his way of doing business and behavior, 
then I will listen to his proposed changes. But I will just 
tell you that if we had great confidence that things were going 
to change, we would not have sent the letter to the White House 
when we did.
    Senator Barrasso. And when I read this article, when I read 
this letter that the Chairman does not believe, and he could 
insert any of your names, because he said all of you, the 
majority of this current Commission has taken an approach that 
is not as protective of public health and safety as I believe 
is necessary for public health and safety in the country, do 
you believe you take positions that are necessary and are 
protective of public health and safety in this country?
    Mr. Ostendorff. Yes, I do.
    Senator Barrasso. Mr. Apostolakis.
    Mr. Apostolakis. Absolutely, yes.
    Senator Barrasso. Ms. Svinicki.
    Ms. Svinicki. Yes, Senator.
    Senator Barrasso. Mr. Magwood.
    Mr. Magwood. Absolutely.
    Senator Barrasso. Thank you. Thank you very much.
    Thank you, Madam Chairman.
    Senator Boxer. Thank you so much, Senator.
    Senator Sanders.
    Senator Sanders. I think it is just important to reiterate, 
and make sure we have it in the record, that after all of the 
attacks about the ``hostile work environment'' that in the 
major surveys that are done of various Government agencies, in 
terms of being the best places to work, time after time, on 
issue after issue, the NRC comes out to be No. 1 and No. 2 out 
of 30 or 31 agencies. That is pretty good. And I would 
congratulate the leadership of the NRC, Mr. Jaczko and others, 
for making that happen.
    There is an issue that has concerned me for a while, and 
that is, when members of the Senate have to vote, we go down to 
the table, we say yes, we say no. In 2 seconds, the whole world 
knows how we vote. But you guys have a much more obscure and 
complicated process. And it concerns me very much.
    So I am going to ask you a very, very simple question. To 
increase accountability, so the American people know how you 
are addressing and voting on very, very important issues, will 
each of you commit to conduct votes in public where people can 
see for themselves how you fulfill your responsibility to 
protect public health and safety? Start off with Mr. Magwood 
then move on down the line.
    Mr. Magwood. I have to be honest, Senator, I am not sure I 
understand the question. We do vote in public to affirm our 
decisions. Which, if you can be----
    Senator Sanders. You do not--I mean, when we vote, we go 
down, and we say yes or no. There is an issue. Sometimes you 
vote and people don't know about it for weeks later. Sometimes 
your votes, as I understand it, are cloaked in reports that you 
make. That is an unusual way to do democracy.
    So what I am simply asking is, will you commit to us to 
conduct votes in public where people can see for themselves how 
you vote?
    Mr. Magwood. Let me just commit to follow up with you 
later, Senator. I would be happy to visit with you, because I 
am still not sure I understand exactly what the----
    Senator Sanders. I just don't think it is an awfully 
complicated question. People would think we would pretty silly 
if we go down and vote this afternoon but nobody knows how we 
vote, and maybe 2 weeks later, Senator Sessions or Bernie 
Sanders issues a report describing how we voted. People want to 
know, did you vote yes, did you vote no. That is my question.
    Mr. Magwood. Senator, I know Chairman Jaczko has a practice 
of releasing his votes, I think within 2 days or something, of 
casting his votes. If that is the sort of thing you are talking 
about, that is certainly something I would be willing to 
consider.
    Senator Sanders. Willing to consider.
    Commissioner Svinicki.
    Ms. Svinicki. My understanding is the NRC's notation voting 
process is similar to that used at many boards and commissions. 
When a decision is arrived at, our votes are posted to the NRC 
Web site and made public. A fundamentally different voting 
system of just yes or no would be a real departure from the way 
we vote now, which is to vote on complicated, 100-page reports. 
We often vote with a lot of commentary, and then we arrive at a 
majority decision.
    Senator Sanders. I believe that--well, I will tell you that 
sometimes we vote on 1,000-page reports, but we still have to, 
we do it, and 3 seconds later we get telephone calls telling 
us, from angry constituents, as to why we voted the way we 
voted. And I am asking you--you are right, I am asking you, are 
you going to change, will you support changing that way?
    Ms. Svinicki. I support, the process that we use now I 
think allows us to consider the complexity of these issues. It 
has been used since the beginning of the agency.
    Senator Sanders. I understand. But in all due respect, 
Commissioner, some of the issues that we have to deal with are 
fairly complex as well.
    Chairman Jaczko.
    Mr. Jaczko. Yes, I believe actually we should return to 
some of the practices that were undertaken by the Commission in 
the past. In the past, the Commission conducted its actual 
deliberations on voting in public meetings, and actually 
conducted the actual process of voting in public meetings. So 
the notation voting process was introduced, I believe, in the 
1980s, by a particular Chairman. And it has been refined over 
the years. But I think a return back to an actual voting 
session, where we get in a room, we say yes or no, we 
deliberate, discuss, if we need to edit or modify positions, we 
do it all in public, simultaneously rather than the process we 
use currently.
    Senator Sanders. Thank you.
    Mr. Apostolakis.
    Mr. Apostolakis. There is great value in the notation vote, 
voting process we have now. There are very intense 
deliberations in my office with my staff and all that. And I 
don't want to lose that. I am all for public information, 
public votes and so on, as long as I don't lose that.
    I am not sure deliberating in public is as easy as the 
Chairman presents it, but I am willing to listen. But the vote 
is public. The votes now are public. They are delayed 
sometimes. But they are public, except in adjudicatory matters.
    Senator Sanders. Mr. Ostendorff.
    Mr. Ostendorff. Senator Sanders, I am looking at my vote 
here that I cast July 27th on the Fukushima Task Force report. 
It is a 5-page, single-spaced vote. It was made public a couple 
of weeks after it was cast.
    So I would say that the notation voting process we 
currently undergo is fulsome, it provides a very full 
explanation of our positions. It is transparent.
    Senator Sanders. I am not quite clear. What does that mean, 
a 5-page vote? You voted yes or no, then you gave an 
explanation as to why you voted.
    Mr. Magwood. Sir, I worked as the Counsel for the House 
Armed Services Committee. I have seen many votes in the Senate 
and the House. I understand that most of those are yes or no 
votes. We have a different process, as the Chairman alluded to 
here, that deals with notation votes that explain our 
positions. These are complicated matters. These are public 
record.
    Senator Sanders. I believe, I do, I appreciate that they 
are complicated matters. Virtually everything that the United 
States does is enormously complicated. But to the end of the 
day, to the degree that we can bring forward transparency, Mr. 
Apostolakis, everybody agrees here. There should be fulsome 
debate. Fulsome debate. And take as much time as you can to 
argue with each other, work out compromises, to do what you do.
    But I think to the degree that that can be done under 
public scrutiny and that your votes are made public on the day 
that you make them, I can't see why that is not a positive 
thing.
    Madam Chair, thank you.
    Senator Boxer. Well, yes. Do any of my colleagues on the 
other side wish to make a closing comment before I close?
    Senator Sessions. I would just say thank you, Madam 
Chairman. You have been here, you have let us have our 
questions, and we have had a healthy debate. We disagree a lot 
on the motivations and how this thing happened. I would just 
express my appreciation for those members who felt it necessary 
to raise with the White House the problems that you saw. I 
believe you did that with integrity, with interest for the 
Government, and I believe there is a factual basis that has 
been well-established to justify your concerns.
    Thank you, Madam Chairman.
    Senator Boxer. Thank you so much, Senator.
    Senator Barrasso, do you want to make a comment?
    Senator Barrasso. Yes, Madam Chairman, I would. We have 
four members of the Commission who are here, two Republican, 
two Democrat. All unanimously confirmed by the U.S. Senate. 
Three appointed by President Obama. It is historic to sign a 
letter like this. And it is courageous. And I want to thank you 
for your commitment to public safety and to public service, and 
I am grateful that you are all members of this Commission. 
Thank you for being here with us today.
    Thank you, Madam Chairman.
    Senator Boxer. Thank you so much.
    I want to thank all of the Commissioners for being here. I 
want to say to the Chairman, you are one strong, good man. You 
are a good man. And as I look at the history of nuclear power 
in this country, the people who are calling for safety get 
pounded. And I get back to that, because there is just no proof 
to what my colleagues are saying about your leadership, when 
just at the time that they are writing letters complaining and 
all this and that, you are being rated by your own staff and 
your own employees as 1 out of 30 on effective leadership in 
terms of the way you run the place.
    I am disturbed at what has gone on. And I had hints of this 
the last time we met. And I urged you at that time, please, all 
of you, sit down and do what is right for the country. A lot of 
us took our chances when we voted for you, OK? On both sides of 
the aisle. Both sides of the aisle. Because this agency is not 
about partisanship, it is about safety of the highest degree. 
Because look at what happened at Fukushima. God forbid 
something like that ever happen. It stood that country on its 
head, and whether it ever recovers from it, history will note. 
But it will never be the same.
    So we are not dealing with some harmless waste material 
here. You know that. You are all smart on this.
    So I am going to ask you each one question. And before, you 
must answer yes or no. It is not a hard question. I am going to 
send you a letter with Senator Sanders and others, hopefully on 
both sides, I don't know, I will have to circulate it. It is 
going to ask each of you individually, of the 12 
recommendations made by the staff, the Task Force, which do you 
feel can be accomplished within a time table of 90 days, 6 
months, a year. We will give you some chance to explain. And I 
am going to ask you today if you would answer that letter to 
the best of your ability. If you don't know, that is 
unfortunate. You should know at this point.
    But my fear is, we are going to wait 10 years to get this 
done. And my people at home, they may shut down the nuclear 
plants with an initiative. They need to know that you, we are 
doing our job. So that letter, I think, is very important.
    Now, you have said yes to me on other occasions and haven't 
exactly lived up. So before you answer it, if you feel you 
can't answer that letter, say no.
    So will you please respond to me? And I will share it with 
all members of the Committee on both sides of the aisle, on 
which of the 12 recommendations you think could be done within 
90 days, 6 months and a timeframe, your best analytical answer, 
for each of those.
    I will start with you, Mr. Magwood. Will you answer that 
letter?
    Mr. Magwood. Yes.
    Senator Boxer. Thank you.
    Ms. Svinicki. Yes. Yes, Chairman, I will.
    Senator Boxer. Thank you very much.
    Mr. Jaczko. Yes.
    Senator Boxer. Thank you.
    Mr. Apostolakis. By done, you mean implemented at the 
plants?
    Senator Boxer. No, a decision to send, your decision to 
send out the order to the plants.
    Mr. Apostolakis. Yes, I will answer.
    Senator Boxer. Thank you.
    Mr. Ostendorff. Yes, Madam Chairman.
    Senator Boxer. Well, I couldn't be happier. I have a great 
suggestion. Why don't you guys go out and celebrate the 
holidays together?
    [Laughter.]
    Senator Boxer. I will buy. I will buy. Honestly. And I just 
feel you are all so smart, let's get on the same team, and 
let's do what is right for the country.
    Thank you very much. We stand adjourned.
    [Whereupon, at 1:35 p.m., the Committee was adjourned.]
    [Additional material submitted for the record follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    
    
    
                           <all>
</pre></body></html>
